<html>
<title> - AN UPDATE ON THE CLIMATE CRISIS: FROM SCIENCE TO SOLUTIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    AN UPDATE ON THE CLIMATE CRISIS:
                       FROM SCIENCE TO SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2020

                               __________

                           Serial No. 116-62

                               __________

 Printed for the use of the Committee on Science, Space, and Technology[
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-912PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  JAIME HERRERA BEUTLER, Washington
CHARLIE CRIST, Florida               FRANCIS ROONEY, Florida
SEAN CASTEN, Illinois                GREGORY F. MURPHY, North Carolina
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                        
                        C  O  N  T  E  N  T  S

                            January 15, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written statement............................................     8

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written statement............................................    11

                               Witnesses:

Dr. Pamela McElwee, Associate Professor of Human Ecology, School 
  of Environmental and Biological Sciences, Rutgers, The State 
  University of New Jersey
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Richard Murray, Deputy Director & Vice President for 
  Research, Woods Hole Oceanographic Institution
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. Heidi Steltzer, Professor of Environment and Sustainability, 
  Fort Lewis College, Colorado
    Oral Statement...............................................    70
    Written Statement............................................    72

Mr. Michael Shellenberger, Founder and President, Environmental 
  Progress
    Oral Statement...............................................    81
    Written Statement............................................    84

Ms. Taryn Fransen, Senior Fellow, Global Climate Program, World 
  Resources Institute
    Oral Statement...............................................   102
    Written Statement............................................   104

Discussion.......................................................   112

             Appendix I: Answers to Post-Hearing Questions

Post-Hearing Questions Submitted by Members......................   152

Dr. Pamela McElwee, Associate Professor of Human Ecology, School 
  of Environmental and Biological Sciences, Rutgers, The State 
  University of New Jersey.......................................   159

Dr. Richard Murray, Deputy Director & Vice President for 
  Research, Woods Hole Oceanographic Institution.................   173

Dr. Heidi Steltzer, Professor of Environment and Sustainability, 
  Fort Lewis College, Colorado...................................   176

Mr. Michael Shellenberger, Founder and President, Environmental 
  Progress.......................................................   180

Ms. Taryn Fransen, Senior Fellow, Global Climate Program, World 
  Resources Institute............................................   181

            Appendix II: Additional Material for the Record

Letter submitted by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   200

Article submitted by Representative Anthony Gonzalez, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   203

Report submitted by Representative Don Beyer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   219

Summary submitted by Dr. Richard Murray, Deputy Director & Vice 
  President for Research, Woods Hole Oceanographic Institution...   224

Executive Briefing submitted by Dr. Heidi Steltzer, Professor of 
  Environment and Sustainability, Fort Lewis College, Colorado...   238

 
                    AN UPDATE ON THE CLIMATE CRISIS:
                       FROM SCIENCE TO SOLUTIONS

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2020

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Chairwoman Johnson. This hearing will come to order. And 
without objection, the Chair is authorized to declare a recess 
at any time.
    Let me say good morning and welcome to everyone, most 
especially our witnesses. This is our first hearing on the 
Committee on Science, Space, and Technology of the second 
session of the 116th Congress, and we're delighted that our 
experts have come and agreed to participate.
    As was the case at our first hearing this Committee held in 
the 116th Congress, we are focusing on the climate crisis. 
Specifically, we are discussing the latest science and the 
solutions we urgently need to implement. Since that inaugural 
climate hearing in February 2019, I am proud to say that this 
Committee has held numerous hearings examining the climate 
crisis and moved a number of important climate-related bills 
through the Committee so far. The hearings have discussed major 
climate reports, considered technological and energy solutions, 
and assessed how the U.S. can remain a global leader in weather 
and climate science.
    Members have been hard at work on a suite of legislative 
proposals that would improve our Earth system science and deep 
decarbonization efforts, including the authorization of 
strategic increases in funding for clean energy research and 
development where it's most needed. Despite these 
accomplishments, there remains more work to do to ensure that 
the United States can better understand, mitigate, and adapt to 
climate change.
    Today, our expert witnesses will testify that time is 
quickly running out to prevent devastating impacts to humans 
and ecosystems globally. However, I hope they will also 
emphasize that though the situation is urgent, it is not 
hopeless. There is much we can achieve with our current 
technologies and other potential solutions ripe for further 
investment.
    Climate change is not just a future issue. Our witnesses 
will testify about the real and devastating impacts that are 
being felt now in communities across the United States and the 
world. Record heat and drought in Australia, which current 
science links to human-caused climate change, have created 
catastrophic fires that continue to blaze. Though this 
Administration has so far abdicated its role as a leader in 
addressing the climate crisis, many of us in Congress are 
committed to addressing all aspects of this global threat.
    Last month, a number of my colleagues and I attended the 
25th U.N. Conference of Parties, or the COP 25, in Madrid, 
Spain. We went to demonstrate the U.S.' continuing commitment 
to the ideals laid out in the Paris Agreement.
    While it was disappointing to see the outcome of the COP, I 
look forward to continuing our efforts to act on climate change 
here in this Committee and in Congress as a whole. During this 
second session, I hope to continue collaborating across the 
aisle to pass legislation that helps us address climate change, 
and this hearing is an important step in that process.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning. I'd like to welcome everyone here to the 
first hearing of the Committee on Science, Space, and 
Technology in the second session of the 116th Congress. I'd 
also like to welcome our expert witnesses and thank them for 
their participation. As was the case at the first hearing that 
this Committee held in the 116th Congress, we are focusing on 
the climate crisis. Specifically, we are discussing the latest 
science and the solutions we urgently need to implement.
    Since that inaugural climate hearing in February 2019, I am 
proud to say that this Committee has held numerous hearings 
examining the climate crisis and moved a number of important 
climate-related bills through the Committee so far. The 
hearings have discussed major climate reports, considered 
technological and energy solutions, and assessed how the U.S. 
can remain a global leader in weather and climate science. 
Members have been hard at work on a suite of legislative 
proposals that will improve our earth system science and deep 
decarbonization efforts, including the authorization of 
strategic increases in funding for clean energy research and 
development where it is most needed.
    Despite these accomplishments, there remains more work to 
do to ensure that the United States can better understand, 
mitigate, and adapt to climate change. Today, our expert 
witnesses will testify that time is quickly running out to 
prevent devastating impacts to humans and ecosystems globally. 
However, I hope they will also emphasize that though the 
situation is urgent, it is not hopeless. There is much that we 
can achieve with our current technologies, and other potential 
solutions ripe for further investment.
    Climate change is not just a future issue. Our witnesses 
will testify about the real and devastating impacts that are 
being felt now in communities across the U.S. and the world. 
Record heat and drought in Australia, which current science 
links to human-caused climate change, have created catastrophic 
fires that continue to blaze.
    Though this Administration has so far abdicated its role as 
a leader in addressing the climate crisis, many of us in 
Congress are committed to addressing all aspects of this global 
threat. Last month, a number of my colleagues and I attended 
the 25th UN Conference of Parties, or COP 25 in Madrid, Spain. 
We went to demonstrate the U.S.'s continuing commitment to the 
ideals laid out in the Paris Agreement. While it was 
disappointing to see the outcome of the COP, I look forward to 
continuing our efforts to act on climate change here in this 
Committee, and in the Congress as a whole.
    During this second session, I hope to continue 
collaborating across the aisle to pass legislation that helps 
us address climate change, and this hearing is an important 
step in that process.

    Chairwoman Johnson. Now, I'd like to enter into the record 
a letter from the National Parks Conservation Association. The 
letter briefly outlines the importance of science to national 
parks, especially in the reality of a changing climate.
    I now will recognize our Ranking Member Mr. Lucas for his 
opening statement.
    Mr. Lucas. Thank you, Chairwoman Johnson.
    As we start this second session of the 116th Congress, I 
want to thank you for your leadership. And like many of the 
hearings we held this last year, today's hearing is an 
opportunity for a constructive dialog on the issue of climate 
change.
    Almost a year ago we held the Science Committee's first 
hearing of the Congress titled, ``The State of Climate Science 
and Why It Matters.'' We heard testimony from a similar panel 
of IPCC (Intergovernmental Panel on Climate Change) authors and 
scientists.
    We know the climate is changing, and that global industrial 
activity has played a role in this phenomenon. But now, 1 year 
later, I ask, what progress we've made since then? I believe my 
friends on the other side of the aisle agree with me that the 
most effective thing we can do on this Committee to address 
climate change is to support more basic research that will lead 
to the next generation of technologies that are needed to 
reduce global emissions like carbon capture, nuclear power, and 
fusion energy. I'm disappointed that we haven't taken that 
action, and instead of supporting the technologies of the 
future, we have focused our attention in the past year on 
applying research in industries like wind and solar that are 
already thriving.
    I'm also disappointed in headlines that put a ticking clock 
on our destruction at the hands of climate change. This is 
counterproductive to promoting both science and solutions. 
These doomsday scenarios and apocalyptic predictions are 
misleading because the U.S. is already taking action through 
investments in the science and innovation needed for cleaner 
energy production.
    We won't successfully address greenhouse gas emissions with 
pie-in-the-sky policies that demand 100 percent renewable 
energy at the expense of reliable power from nuclear and fossil 
fuels. This would only raise energy prices for businesses and 
consumers and potentially cripple the American economy.
    Today, the market exists for implementing groundbreaking 
technologies. Government investment in basic research has led 
to the development of carbon capture, carbon use, advanced 
nuclear, and renewable energy technologies that will 
incentivize growth in these industries and reduce global 
emissions in the process. Innovation is good for the global 
environment and the American economy. We have to take the long-
term approach and make investments in research that will lead 
to the new technologies.
    Federal mandates to deploy today's technologies won't 
revolutionize the energy market. They won't lead to the next 
big discovery. For instance, the current U.S. battery capacity 
is just 1 gigawatt. If we were to meet the radical and, 
frankly, unrealistic goal of 100 percent renewable energy by 
2050, we would need 3,300 gigawatts of battery capacity to 
accommodate the necessary solar and wind power. So if we want 
to see more renewable energy, we need to invest in the kind of 
fundamental chemistry and materials research that will lead to 
affordable, scalable batteries.
    The Department of Energy (DOE) is developing a range of 
technologies at our national labs like carbon capture and 
advanced nuclear reactors that have the potential to reduce new 
greenhouse gas emissions around the world and ensure American 
energy dominance. It's unrealistic to limit our future energy 
mix to only renewable energy.
    As we will hear from one of our witnesses, Mr. Michael 
Shellenberger, nuclear power is an incredible resource that is 
and will continue to be a critical piece of the puzzle in 
addressing climate change. Nuclear power is safe, clean, 
reliable, and growing more affordable by the day. Private 
companies are developing advanced reactors that provide clean, 
carbon-free power. With support from DOE, these advanced 
technologies could provide cheap, reliable, emissions-free 
power around the world. In order for this to happen, we can't 
let scare tactics allow us to abandon our promising technology.
    America led the world in coal, oil, and gas. Now we must 
again lead and partner with industry to develop breakthrough 
energy technologies and make our existing energy sources 
cleaner and more affordable. Prioritizing investments in basic 
science and energy research will revolutionize the global 
energy market and dramatically reduce greenhouse gas emissions.
    We have the tools and expertise to take on the next 
generation of technology challenges, including a changing 
climate. We have a common goal. I'm more encouraged than ever 
that we are on the right track. But I ask my colleagues, let's 
move on from the finger-pointing and focus on tangible 
innovation and realistic solutions.
    I thank our witnesses for being here today, and I very much 
look forward to a productive discussion about these issues.
    And with that, I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson. As we start the second 
session of this 116th Congress, I want to thank you for your 
leadership. Like many of the hearings we held last year, 
today's hearing is an opportunity for a constructive dialogue 
on the issue of climate change.
    Almost one year ago we held the Science Committee's first 
hearing of the Congress titled, ``The State of Climate Science 
and Why It Matters.'' We heard testimony from a similar panel 
of IPCC authors and scientists.
    We know the climate is changing and that global industrial 
activity has played a role in this phenomenon.
    But now one year later I ask: what progress have we made 
since then? I believe my friends on the other side of the aisle 
agree with me that the most effective thing we can do on this 
Committee to address climate change is to support more basic 
research that will lead to the next generation of technologies 
that are needed to reduce global emissions, like carbon 
capture, nuclear power, and fusion energy.
    I'm disappointed that we haven't taken that action, and 
instead of supporting the technologies of the future, we have 
focused our attention in the past year on applied research in 
industries like wind and solar that are already thriving.
    I'm also disappointed in headlines that put a ticking clock 
on our destruction at the hands of climate change. This is 
counterproductive to promoting both science and solutions.
    These doomsday scenarios and apocalyptic predictions are 
misleading--because the U.S. is already taking action through 
investments in the science and innovation needed for cleaner 
energy production.
    We won't successfully address greenhouse gas emissions with 
pie-in-the-sky policies that demand 100% renewable energy at 
the expense of reliable power from nuclear and fossil fuels. 
This would only raise energy prices for businesses and 
consumers and cripple the American economy.
    Today, the market exists for implementing groundbreaking 
innovations. Government investment in basic research has led to 
the development of carbon capture, carbon use, advanced 
nuclear, and renewable energy technologies that will 
incentivize growth in these industries--and reduce global 
emissions in the process. Innovation is good for the global 
environment and the American economy.
    We have to take the long-term approach and make investments 
in research that will lead to new technologies. Federal 
mandates to deploy today's technologies won't revolutionize the 
energy market, and they won't lead to the next big discovery.
    For instance, current U.S. battery capacity is just 1 
gigawatt. If we were to meet the radical and, frankly, 
unrealistic goal of 100% renewable energy by 2050, we would 
need 3,300 gigawatts of battery capacity to accommodate the 
necessary solar and wind power.
    So if we want to see more renewable energy, we need to 
invest in the kind of fundamental chemistry and materials 
research that will lead to affordable, scalable batteries.
    The Department of Energy is developing a range of 
technologies at our national labs, like carbon capture and 
advanced nuclear reactors, that have the potential to reduce 
greenhouse gas emissions around the world and ensure American 
energy dominance.
    It is unrealistic to limit our future energy mix to only 
renewable energy. As we'll hear from one of our witnesses, Mr. 
Michael Shellenberger, nuclear power is an incredible resource 
that is and will continue to be a crucial piece of the puzzle 
in addressing climate change.
    Nuclear power is clean, safe, reliable, and growing more 
affordable by the day. Private companies are developing 
advanced reactors that provide clean, carbon-free power. With 
support from DOE, these advanced technologies could provide 
cheap, reliable, emissions-free power around the world.
    But in order for that to happen, we can't let scare tactics 
allow us to abandon this promising technology.
    America led the world in coal, oil, and gas. Now we must 
lead again, and partner with industry to develop breakthrough 
energy technologies and make our existing energy sources 
cleaner and more affordable.
    Prioritizing investments in basic science and energy 
research will revolutionize the global energy market and 
dramatically reduce greenhouse gas emissions.
    We have the tools and expertise to take on the next 
generation of technology challenges--including a changing 
climate. We have a common goal, and I'm more encouraged than 
ever that we are on the right track. But I ask my colleagues: 
let's move on from the finger pointing and focus on tangible 
innovation and realistic solutions.
    I thank our witnesses for being here today and I look 
forward to a productive discussion.

    Chairwoman Johnson. Thank you very much. If there are other 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    At this time I'd like to introduce our witnesses. Our first 
distinguished witness is Dr. Pamela McElwee, an Associate 
Professor of Human Ecology in the School of Environmental and 
Biological Sciences at Rutgers. Dr. McElwee is the 
Interdisciplinary Environmental Scientist whose research 
focuses on ecosystem services and resource use in the context 
of environmental changes.
    She was a lead author of the chapter 6 of the IPCC Special 
Report on Climate Change and Land on integrated response 
options and lead author for chapter 6 on biodiversity 
governance of the global assessment of the Intergovernmental 
Panel of Biodiversity and Ecosystem Services.
    She received her Ph.D. in forestry and environmental 
studies and anthropology at Yale University.
    Our second witness, Dr. Richard Murray, is Deputy Director 
and Vice President for Research at the Woods Hole Oceanographic 
Institution. Mr. Murray is a geochemist whose research focuses 
on interpreting chemical records of climate change, vulcanism, 
and tropical oceanographic processes.
    He previously served as Director of the Division of Ocean 
Scientists at the National Science Foundation (NSF) and as a 
Co-Chair for the Subcommittee on Ocean Science and Technology 
as part of the Office of Science and Technology Policy (OSTP).
    Dr. Murray received his Ph.D. from the University of 
California at Berkeley.
    Our third witness, Dr. Heidi Steltzer, a Professor of 
Environment and Sustainability at Fort Lewis College in 
Colorado. Her research focuses on how environmental changes 
affect mountain watersheds and arctic ecosystems and their link 
to our wellbeing. She has spent 25 years conducting field 
studies in mountain and arctic hillslopes in Colorado, Alaska, 
Greenland, and China. She was a lead author for the chapter on 
high mountain areas in the IPCC Special Report on the Oceans 
and Cryosphere in our Changing Climate.
    Dr. Steltzer earned her Ph.D. in ecosystem ecology from the 
University of Colorado in Boulder.
    Mr. Perlmutter. Go Buffs.
    Chairwoman Johnson. I knew I'd hear a voice.
    Our fourth witness is Mr. Michael Shellenberger, Founder 
and President of Environmental Progress. Mr. Shellenberger has 
been an environmentalist and social justice advocate for over 
25 years. He has worked to preserve California's redwood 
forests, an advocate for clean energy investment. He founded 
Environmental Progress with the goals of lifting all people out 
of poverty and saving the natural environment.
    Mr. Shellenberger graduated from the Peace and Global 
Studies program at Earlham College.
    And our final witness is Ms. Taryn Fransen, a Senior Fellow 
in the Global Climate Program at the World Resources Institute 
(WRI). Ms. Fransen is an international climate policy expert 
who focuses on pathways and policies to limit climate change, 
including long-term strategies and nationally determined 
contributions under the Paris Agreement. She was a lead author 
of the United Nations' Environment Programme (UNEP) Emissions 
Gap Report.
    She received her master's degree in Earth systems at 
Stanford University and is pursuing doctoral studies in Energy 
and Resources Group at the University of California at 
Berkeley.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When all of you have 
completed your spoken testimony, we will begin with questions, 
and each Member will have 5 minutes to question the panel. So 
we will start now with Dr. McElwee.

                TESTIMONY OF DR. PAMELA McELWEE,

              ASSOCIATE PROFESSOR OF HUMAN ECOLOGY,

        SCHOOL OF ENVIRONMENTAL AND BIOLOGICAL SCIENCES,

          RUTGERS, THE STATE UNIVERSITY OF NEW JERSEY

    Dr. McElwee. Great. Thank you, Chairwoman Johnson, Ranking 
Member Lucas, and Committee Members for inviting me to speak 
today. My name is Pam McElwee, and I'm an Associate Professor 
at Rutgers University. My research focuses on human 
vulnerability to global climate change and the impact of 
policies for land-based mitigation. I served as one of nearly 
100 authors of the IPCC Climate Change and Land Report and was 
invited here to speak to the findings of that report, and I'm 
doing so in my personal capacity.
    IPCC reports serve as the most authoritative assessments of 
current climate science. The Land report is one of three 
special reports that have been completed in this assessment 
cycle, along with the 1.5+ report that came out last year, the 
Oceans and Cryosphere report that my fellow witnesses will 
speak about as well.
    So let me provide an overview of what the key findings from 
the Land report were. First, land is under growing pressure. 
Currently, human use directly affects more than 70 percent of 
the global land surface, encompassing all the things that we do 
from growing crops, producing timber, managing pastures, and 
sheltering ourselves. However, these activities are putting 
increasing pressure on land and biodiversity, including through 
land-based emissions of greenhouse gases. Further, the rising 
impacts of climate change are already visible in many of our 
terrestrial ecosystems, and changes in land use can in turn 
amplify these signals.
    Second, land can be part of the solution. Luckily, there 
are multiple options to achieve better land stewardship and 
reduced emissions such as through sustainable land management, 
improved food systems, and conserving priority ecosystems.
    However, the report's third and final key message is that 
land cannot do it all. There is a finite amount of land, and 
it's often under intense competition. There are limits to what 
land can do for us in terms of mitigation without incurring 
sustainability tradeoffs. And the land sector cannot fully make 
up for failing to tackle fossil fuel emissions elsewhere.
    So let me put some of these points in a bit more context. 
Since the pre-industrial period, the land surface air 
temperature has risen nearly twice as much as the global 
average temperature, and it is now at more than 1.5+ Celsius. 
These temperature changes create stresses on land ranging from 
impacts on livelihoods, biodiversity, human and ecosystem 
health, infrastructure, and food systems. In the U.S. our land 
systems are already feeling climate change impacts, including 
heat and drought, extending the wildfire risk season in 
California, and extreme rainfall events last spring in the 
midwest.
    Additional emissions in the future will increase the 
impacts on land and ecosystems. The frequency and intensity of 
droughts are projected to increase both globally and in the 
United States, as are the frequency and intensity of extreme 
rainfall events. For forests, we expect to see increases in the 
intensity and frequency of wildfires. As we are seeing play out 
in Australia right now, warmer and drier conditions facilitate 
fires that spread over larger areas and are harder to contain.
    Food security is also at risk. We already see food systems 
affected by heat, changing precipitation patterns, and more 
extreme events. Future climate changes are projected to result 
in crop yield declines, increased prices, reduced nutrient 
levels and quality, and supply chain disruptions. All of these 
risks to land systems escalate with increasing temperatures.
    Yet despite these problems, we have a number of solutions 
that are ready and available for us to use and at low cost. 
Land is really the only major sector where we cannot only 
reduce emissions but offset emissions from other sectors as 
well, creating a tremendous opportunity for farmers, ranchers, 
and other land managers. For example, sustainable land-use both 
reduces emissions and degradation and helps us adapt to climate 
changes. Improvement in soil health will increase carbon 
sequestration, improve farm productivity, and can secure new 
revenue streams.
    Reforestation and restoration are win-wins as well, 
providing both short-term positive economic returns and longer-
term benefits in terms of adaptation and mitigation. Other 
nature-based solutions like conservation of critical ecosystems 
have the potential to provide significant climate mitigation 
impacts as well.
    Improving our food production and consumption systems can 
also be a win-win if we focus on increased food productivity, 
improved distribution and access, better dietary choices, and 
reduced food losses and waste.
    So I personally grew up in a small farm in eastern Kansas 
from a long line of farmers. I understand how much our rural 
economies love the land and cherish being part of our great 
agricultural economy. But the challenges they and we face are 
increasingly serious. Rapid reductions in anthropogenic 
greenhouse gas emissions across all sectors, including fossil 
fuels and land, would substantially reduce the negative impacts 
of climate change on ecosystems and people.
    Thank you for having me here today.
    [The prepared statement of Dr. McElwee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairwoman Johnson. Thank you very much. Dr. Murray.

                TESTIMONY OF DR. RICHARD MURRAY,

        DEPUTY DIRECTOR AND VICE PRESIDENT FOR RESEARCH,

              WOODS HOLE OCEANOGRAPHIC INSTITUTION

    Dr. Murray. Chairwoman Johnson, Ranking Member Lucas, 
Members of the Committee, my name is Richard Murray. I'm the 
Deputy Director and Vice President for Research at the Woods 
Hole Oceanographic Institution in Woods Hole, Massachusetts. 
We're the world's largest independent nonprofit ocean research 
institution and have nearly 1,000 staff dedicated to ocean 
science, engineering, and education. Thank you for the 
opportunity to address you today on behalf of the broader U.S. 
ocean science community.
    I have three main takeaway points for you today. First, the 
ocean is central to Earth's climate and weather systems, as 
well as our economic growth and national security and must be 
included in any discussion regarding legislation and policy 
addressing the environmental changes we see today.
    Second, we as a Nation must make bold and innovative 
investments in ocean observations because this quantitative 
data is essential in order to improve climate and weather 
predictions and our ability to make difficult decisions about 
how we manage the future.
    Third, the integration of climate and weather modeling with 
risk assessment and risk management models is needed to help 
align climate and economic policies that have the potential for 
dramatic and positive effect on the U.S. for generations to 
come. All of this relies on increasing and improving the 
quality of data throughout the world's oceans.
    You specifically requested that I address the 2019 IPCC 
Special Report on the Ocean and Cryosphere in a Changing 
Climate. This extensively peer-reviewed document marks a 
milestone in IPCC reports because it assesses comprehensively 
the role of the ocean in our planet's climate system and 
identifies the many ways that a changing climate influences and 
is influenced by the ocean.
    The IPCC reports the result of more than 100 scientists 
from 36 countries who reference nearly 7,000 scientific 
publications and addressed over 31,000 comments from reviewers. 
The language in the report is very carefully chosen to depict 
the level of scientific certainty in its findings. It states 
that the ocean is changing in fundamental and complex ways that 
should be of concern to even the most landlocked of us.
    These findings document some basic truths. The ocean is 
warming, sea levels are rising, sea ice is disappearing, 
surface waters are becoming more acidic, and oxygen minimum 
zones within the ocean depths are expanding. Of increasing 
concern is that it appears that the rate at which these changes 
are taking place is accelerating. It is not linear, nor is it 
steady. The evidence is clearly indicating that human activity 
has played a significant role in these changes.
    But much of what is happening in the ocean is occurring 
over the horizon, deep beneath the surface, and over long 
periods of time. As a result, it's difficult for humans to 
sense or to understand what is happening. Only through decades-
long observations and a comprehensive look at the ocean's 
distant past, recorded in cores of ice from land and in 
sediment from the seafloor, have we come to understand the 
scope and nature of our changing planet. But it's not enough. 
We need to learn more about our oceans in places we've never 
been and for longer than we've ever been there.
    The ocean drives the weather that helps put food on our 
tables and is a foundation of local, State, and regional 
economies that total billions if not trillions of dollars per 
year. And it's not just places near the shore that should pay 
attention. For example, studies show that floods throughout the 
Mississippi River Valley in 2019 as far north as Minnesota were 
directly tied to weather patterns originating in the waters of 
the Gulf of Mexico and the Pacific Ocean. So it is with good 
reason that we take notice of the IPCC report, particularly 
because its findings are based on the best available scientific 
data and conclusions.
    Now, it troubles some folks that, alongside these findings, 
the conclusions often include levels of certainty or 
uncertainty, which is often perceived as a weakness of science. 
In fact, the opposite is true. Some of the findings have lower 
certainty because we need better observations. This shows where 
we should turn our attention in order to improve our 
understanding and decrease that uncertainty. This is a hallmark 
of the scientific process.
    Ocean observations are expensive and difficult to make, 
particularly in places like the Arctic and the southern oceans. 
The ocean as a whole is vast, harsh, constantly changing. So 
what are we to do? We must invest in the infrastructure, 
technology, and instrumentation of ocean observations to help 
make the ocean transparent to us. To study the ocean, you have 
to go out onto it and down into it, which is something the 
ocean science community specializes in.
    With your continuing support for ocean science, expanding 
observational capability, and for developing the engineering 
and technological means and workforce to achieve such 
capability, we can help address the challenges that face us and 
generate the best information possible to help inform private, 
public, and business cost-benefit decisions.
    I thank you again for the opportunity to appear before you, 
and I look forward to your questions.
    [The prepared statement of Dr. Murray follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairwoman Johnson. Thank you very much. Dr. Steltzer.

                TESTIMONY OF DR. HEIDI STELTZER,

          PROFESSOR OF ENVIRONMENT AND SUSTAINABILITY,

                  FORT LEWIS COLLEGE, COLORADO

    Dr. Steltzer. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the House Committee on Science, Space, and 
Technology, I'm grateful for the invitation to be here with you 
all today.
    I'm a scientist and explorer and a science communicator. I 
prefer to go where the temperatures are cool, the snow is deep, 
the plants are small, and the opportunity for collaborative 
science to understand our planet is huge. I have conducted 
field studies in remote mountain and polar regions for 25 years 
in Colorado, Alaska, Greenland, and most recently on the 
Tibetan Plateau in China. I'm a Professor at Fort Lewis 
College, which is in Durango, Colorado, in the Four Corners 
region.
    The United States is not the most vulnerable nation to 
climate change, though we have already been and will continue 
to be impacted. It is difficult to comprehend what the costs of 
further inaction could be. Many of the cryospheric changes 
described in the most recent IPCC report, the one that Dr. 
Murray also spoke of, and further summarized in the Cryosphere 
1.5+ C report that I provided as part of my testimony, may seem 
far away in time or in space. The cryosphere is the frozen 
water on our planet. It's the regions across the Earth where 
there is snow, permafrost--permanently frozen ground--and ice.
    In these regions, what are we seeing? We're seeing rapid 
ice sheet deterioration in Antarctica; fall and perhaps sooner 
winter without Arctic sea ice; increasingly more unfrozen 
ground across Russia, northern Europe, and North America, 
including Alaska; disappearing mountain glaciers in Peru; and 
mountains with less snow.
    Due to the volume of ice and the greater permanence when 
ice is lost, the changes to snow may be overlooked by the media 
and policymakers, but these changes in snow are not overlooked 
by the farmers, the ranchers, the water managers, the skiers, 
and the business owners in the community where I live.
    In my community on the western slope of Colorado, we talk 
about snow a lot. We talk about climate change, we talk about 
less snow, we talk about wildfire, and we talk about all those 
things amidst also talking about powder days, recent 
adventures, and how our children are doing. We don't often talk 
in rural western Colorado about Arctic sea ice or ice sheets in 
Antarctica, though these, too, will affect us.
    What are some of the ways the cryosphere is changing that 
should be discussed more across all of America? Changes to ice 
are irreversible on time scales that are relevant for policy. 
Abrupt processes occur. We know of some of these but not all, 
and by their nature we don't know when they'll occur. And in 
the world's mountains, not just in the U.S. mountains, the 
presence and persistence of snow is changing. There is less 
snow.
    In every community across the United States temperature 
extremes are affected by cryospheric changes that influence air 
circulation. Melting ice affects the rate of sea-level rise in 
coastal regions. The loss of ice and thaw of permafrost affect 
the acceleration of warming and melting and the chance to keep 
our planet below 1.5+ C warming over pre-industrial times. More 
extreme temperatures, less reliable water, and the pace of 
these changes affect food energy and water supply. There is 
much we can do.
    So what can we do? Our country should aim to be a resilient 
nation. Resilience is coping capacity. It's coping capacity in 
response to unknown shocks, trends, or stresses. Resilience 
includes the capacity to adapt and to transform to reduce the 
impact of climate change or other environmental changes. 
Individuals, communities, and nations can be resilient, and our 
Nation should aim to be a resilient nation.
    What motivated me to pursue a career in science may be 
similar to what motivates many of you to be Members of 
Congress: The opportunity to do some good for others. We can 
work to achieve this together.
    Three of my recommendations parallel ones many people in 
the international world have heard recently. Some of our steps 
forward can be to protect the lands that have not yet been 
transformed by our actions. The value of land that we have not 
yet changed is immense. We can restore lands that have been 
transformed so that they store more carbon, hold onto more 
soil, and reduce the impact of extreme weather events. We can 
fund both of these efforts. Federal funding for lands 
protection and restoration form the foundation for communities 
to be resilient.
    The one other piece that I'd like to add that I think 
parallels some of what was shared by Mr. Lucas is that we can 
develop a new narrative about climate change, and where and how 
we tell stories is a really important part of climate change. 
We often focus a lot on what is lost, what is irreversible, and 
what is harmful, and I felt I needed to speak to that, but we 
can also focus on what we can do differently. Snow, plants, and 
soil are renewable resources. We can work to build capacity for 
the lands to be more vibrant and more healthy and more green 
and for there to be more snowfall once again across the U.S.
    Thank you.
    [The prepared statement of Dr. Steltzer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairwoman Johnson. Thank you very much. Mr. Shellenberger.

             TESTIMONY OF MR. MICHAEL SHELLENBERGER,

                     FOUNDER AND PRESIDENT,

                     ENVIRONMENTAL PROGRESS

    Mr. Shellenberger. Good morning, Chairwoman Johnson, 
Ranking Member Lucas, and Members of the Committee. I'm very 
honored to be here. I'm an energy analyst and environmentalist 
dedicated to the goals of universal prosperity, peace, and 
environmental protection. Between 2003 and 2009 I advocated for 
large Federal investments in renewables, many of which were 
made as part of the 2009 stimulus. And since 2013 I've worked 
with climate scientists for the continued operation of nuclear 
plants around the world and have helped prevent emissions from 
increasing the equivalent of adding 23 million cars to the 
road.
    I also care about getting the facts and the science right. 
I believe scientists, journalists, and advocates have an 
obligation to represent climate science accurately even if 
doing so reduces the saliency of our issue. No credible 
scientific body has claimed climate change threatens the 
collapse of civilization, much less the extinction of the human 
species, and yet some activists, scientists, and journalists 
have made such apocalyptic assertions, which I believe 
contribute to rising levels of anxiety, including among 
adolescents and worsening political polarization.
    My colleagues and I have carefully reviewed the science, 
interviewed the scientists and other individuals who have been 
making these claims, and written a series of articles debunking 
them. In response, the Intergovernmental Panel on Climate 
Change has invited me to review its next assessment report, and 
HarperCollins will publish our research findings as a book this 
June.
    While climate change may make some natural disasters more 
frequent and extreme, the death toll from extreme events could 
and should continue to decline, as it did over the last century 
by over 90 percent, even as the global population quadrupled. 
Does that mean we shouldn't worry about climate change? Of 
course not. Policymakers routinely take action on non-
apocalyptic problems, and the risk of crossing unknown tipping 
points rises with higher temperatures.
    But we should recognize that humans are not passive victims 
of environmental change. The Netherlands grew very rich while 
farming up to 7 meters below sea level. Poor nations like 
Bangladesh can and should manage a gradual sea-level rise of 2 
feet over the next 80 years. In fact, they're working with the 
Dutch on that very project right now.
    Future food production will depend far more on whether poor 
farmers gain access to tractors, irrigation, and fertilizer 
than temperature rise according to the best available science 
assembled by the Food and Agriculture Organization, which 
calculates crop yields, will continue to rise even in high-
warming scenarios.
    And there's much we can do to reduce the impacts of 
climate-driven extremes. For example, the most important 
factors behind rising severity and frequency of fires in 
California and Australia are the buildup of wood fuel in 
forests and the expansion of homes and other buildings in fire-
prone areas, both of which can be addressed to protect human 
lives and those of endangered species.
    While the world appears to be headed to temperature rise 
closer to 3+ centigrade over pre-industrial temperatures rather 
than 4, thanks largely to abundant natural gas, nothing is 
guaranteed. As such, the American people have an interest in 
supporting reasonable measures to transition from carbon-
intensive to low-carbon fuels in order to prevent global 
temperatures from increasing by more than 3 degrees.
    The most important of these measures by far is the expanded 
use of nuclear energy. Thanks in part to decades of public and 
private investment in fracking, natural gas is today cheap and 
abundant and thus needs little in terms of new public policy. 
Solar and wind are popular but their inherent unreliability, 
large land-use requirements, and large materials requirements 
mean they make electricity expensive, have large environmental 
impacts, and are inherently limited in their capacity to 
replace fossil fuels.
    Consumers in States with renewable energy standards spent 
$125 billion more for electricity than they would have 
otherwise over the last decade according to University of 
Chicago economists in a research report last year. Germany 
spent =32 billion annually on renewables, which is the 
equivalent of the U.S. spending $200 billion annually between 
2014 and 2018, only to increase its share of electricity from 
solar and wind by 11 percentage points. French electricity, 
which 72 percent nuclear, produces 1/10 of the carbon emissions 
as renewables-heavy German electricity at nearly half the 
price.
    The U.S. invented nuclear energy for civilian use in the 
1950s, and yet over 3/4 of new nuclear reactors globally are 
being built by the Chinese and Russians. Everyone recognizes 
that for the U.S. to compete in building nuclear plants abroad, 
we must build them at home, and yet electric utilities may 
close half of America's nuclear plants over the next 2 decades.
    While the nuclear industry deserves great credit for the 
continuous improvement of power plant safety and efficiency, 
many utility executives today are either resigned to the 
technology's decline or engaged in wishful thinking. Even were 
utilities to replace every nuclear plant it closes with small 
modular reactors, the electricity generated would be roughly 2/
3 less. And if nations were to one day opt for smaller 
reactors, they would likely purchase them from those nations 
that offer the most favorable financial terms and have the most 
experience, which is Russia and China.
    Given all of that, I would like to post three questions as 
a public-interest advocate of the environment and of nuclear. 
First, is it in the interest of taxpayers to subsidize U.S. 
electric utilities to operate existing nuclear plants in the 
absence of any commitment to build new nuclear plants? Second, 
does Congress believe the U.S. can compete with China and 
Russia while shutting down half to 2/3 of its nuclear fleet? 
Third, is Congress really comfortable standing by and watching 
dozens of nations partner with China and Russia to expand their 
use of nuclear over the next century?
    If the answer to the latter question is yes, I think 
Congress should inform the American people that it has decided 
to cede America's historic role as creator, promoter, and 
steward of the world's most sensitive dual-use technology to 
our main geopolitical rivals.
    In the 1950s, Members of Congress understood the sensitive 
and special nature of this technology and pressured a 
distracted White House to make American dominance of nuclear 
energy a top national security priority. I think that the same 
thing is required today. We need a new act of Congress, perhaps 
a revision to the Atomic Energy Act, and perhaps we should call 
it a Green Nuclear Deal in recognition of its importance not 
just to national security but also to the economy, the 
environment, and the climate. Thank you very much.
    [The prepared statement of Mr. Shellenberger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairwoman Johnson. Thank you very much. Ms. Fransen.

                 TESTIMONY OF MS. TARYN FRANSEN,

             SENIOR FELLOW, GLOBAL CLIMATE PROGRAM,

                   WORLD RESOURCES INSTITUTE

    Ms. Fransen. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for inviting me to testify 
today on the UNEP Emissions Gap Report. My name is Taryn 
Fransen, and I'm a Senior Fellow at the World Resources 
Institute, a nonprofit, nonpartisan environmental thinktank. My 
work focuses on greenhouse gas emissions pathways, and I've 
been a lead author of the Emissions Gap Report since its third 
edition in 2012.
    The emissions gap refers to the difference between where 
greenhouse global gas emissions are currently headed and where 
they need to be headed in order to limit warming to 1.5 to 2+ 
Celsius and avoid its worst impacts. For the past 10 years 
under the auspices of the Gap Report, the U.N. Environment 
Programme has convened dozens of researchers from around the 
world to conduct a rigorous, peer-reviewed assessment of the 
scientific literature to quantify the gap. And I have to tell 
you, when I think about the emissions gap, what troubles me is 
less that people sometimes say unscientific things about it, 
although that does occur, and more that the actions of too many 
of our leaders are profoundly out of sync with what the science 
is telling us we need to do in order to close the gap. I'll 
tell you a bit about why, and then I'll touch on what other 
countries are doing and how Congress can help.
    Global emissions grew 1.5 percent per year over the last 
decade to reach a record high last year. Under current 
policies, emissions are projected to grow by another 8 percent 
over the coming decade. Without these policies, emissions would 
have grown even more, so we have made some progress. But 
slowing growth is not enough. Emissions need to be cut nearly 
in half by 2030 to limit warming to 1.5 degrees.
    We're instead on track to experience warming of around 3 to 
3.5 degrees with serious consequences for Americans. 
Temperatures so far have risen around 1 degree, and that was 
enough to increase the likelihood of storms like Imelda and 
Harvey by 2 to 3 times, taking lives and causing billions in 
damage. With impacts like these and worse projected around the 
world, you can understand why the Pentagon considers climate 
change a threat multiplier.
    Looking out to 2030, we find that emissions under current 
policies and pledges are more than 1/3 higher than in 2 degree 
scenarios and more than double at 1.5 scenarios. This 
translates to the need for very steep emissions reductions over 
the next decade and beyond. So to recap, the emissions gap is 
large, it threatens American prosperity and security, and the 
window to close it is shrinking.
    Several additional pieces of global context should inform 
how we respond to the emissions gap. First, the emissions gap 
does not mean that the Paris Agreement isn't working. On the 
contrary, the gap is smaller with the pledges under Paris than 
it would be without them.
    Second, the gap does not indicate that climate action has 
stalled everywhere. At last count the number of climate 
policies around the world had risen to around 1,500. Major 
emitters are among those taking action. Over the last decade, 
China has invested twice as much in renewable energy, as has 
the United States. India is aiming to quintuple its renewable 
capacity by 2030. But this is only one side of the coin. Even 
as China greens its own economy, it continues to finance coal 
infrastructure abroad. In Brazil, deforestation is up 30 
percent. And here at home the Trump Administration is in the 
process of rolling back more than 90 environmental regulations. 
We will not close the emissions gap unless countries like these 
change course.
    As the world's largest economy with its tremendous 
diplomatic clout, the U.S. is uniquely positioned not only to 
go green itself but also to influence other countries to do the 
same. Congress can do three things to help.
    First, Congress should pass ambitious legislation to cut 
emissions. Recent analysis by the University of Maryland, the 
Rocky Mountain Institute, and WRI outlines an all-in policy 
package that can cut U.S. emissions nearly in half by 2030 
while generating economic benefits.
    Second, Congress should position the U.S. to fully reengage 
in climate diplomacy and play a strong role in driving the 
Paris Agreement should it stay in or rejoin. One important 
avenue is to build on successful, bipartisan efforts to 
maintain international funding for clean energy, forest 
protection, and resilience.
    Finally, while ambitious near-term action is possible with 
existing technology, further innovation can broaden our options 
for ultimately driving net global emissions down to zero. 
Therefore, Congress should ramp up RD&D (research, development, 
and demonstration) funding for clean energy and carbon removal.
    The current emissions gap puts us on track to experience a 
dangerous degree of warming. While closing the gap will require 
actions from all countries, U.S. leadership is especially 
important. We need to pass ambitious near-term emissions cuts, 
position the U.S. to conduct robust climate diplomacy, and ramp 
up investment in RD&D. The alternative--rolling back progress 
at home and disengaging internationally--will only serve as a 
convenient excuse for those who would rather avoid action. With 
only a decade to cut our emissions in half, our future hangs in 
the balance. Thank you.
    [The prepared statement of Ms. Fransen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairwoman Johnson. Thank you very much.
    We now have completed the testimony of our witnesses, and 
at this point we will begin our first round of questions. And I 
recognize myself for 5 minutes.
    The climate change crisis is the largest existential threat 
that we face today and has long-term implications that will 
impact future generations. In order to foster climate 
resilience and sustainability development, there must be 
sustained, effective coordination and ambitious efforts for 
both adaptation and mitigation. I've often called this 
Committee ``the Committee of the Future'' because many 
impactful scientific discoveries have come from or were 
supported by agencies within our jurisdiction.
    Given this long history of robust scientific investment, 
I'd like each of you, time permitting, to comment on what are 
the most urgent mitigation adaptation needs, and what are the 
greatest barriers to achieving these goals? What investments 
should this Committee be making in Federal research and 
development efforts in the immediate future or further develop 
and implement effective mitigation and adaptation strategies? 
And finally, what scale should these investments be made? We'll 
start with our first witness.
    Dr. McElwee. Great. Thank you for that question. You're 
absolutely right that we need to focus on both mitigation and 
adaptation. We're already seeing climate impacts at the degree 
of temperature change a little bit under 1+ C that we're 
already at. We're committed to more, so adaptation is crucial.
    For the land sector, one of the really interesting things 
is that things that we do for mitigation also can get us 
adaptation benefits. We get two in one. So, for example, if you 
think about increasing soil's ability to store carbon, that 
gives us mitigation benefits. It also gives us adaptation 
benefits. I mentioned in my written testimony that there's 
evidence that farmers in the midwest who have been using cover 
crops and no-till techniques for a while, which encourages 
healthy soils, were actually more likely to be able to plant 
despite all of the terrible unseasonable extreme rainfall 
events we had in the spring. So we get some mitigation benefits 
and we get some adaptation benefits with some of our actions.
    And the great news at least on the land sector is a lot of 
the things that we can do we don't need to wait for 
technological breakthroughs. For sure there are things that we 
can be doing that would require science investment. I can think 
of things around genetic engineering in terms of crops to make 
them more resilient, adaptive. There's some really interesting 
work that's going on, too, for example, get grains to be able 
to fix nitrogen just like our legumes do. There's some really 
fascinating things that are going on. But at least for the land 
sector we don't have to wait for that. There's things that we 
can do now that get us both adaptation and mitigation.
    Dr. Murray. Regarding mitigation, first up, there's a group 
called the High-level Panel, which has written a report, and 
they make several recommendations that I echo, sort of ocean-
based renewable energy, very important. You can look at the 
transportation sector out in the oceans; look at fisheries, 
aquaculture, so on; try some study of advanced methods for 
carbon storage in the seabed.
    But particularly relevant to the House I want to draw 
attention to is sort of the blue carbon, coastal marine 
ecosystems role. As you're aware, there's a bipartisan bill, 
Blue Carbon for Our Planet Act, and that's a real strong step 
in the right direction of making a difference in the ocean 
world.
    Regarding investments in research, as I spoke about, really 
needing to step up the degree and the amount of our ocean 
observations, again, I want to emphasize the importance that 
has for land. For example, there are some colleagues of ours at 
Woods Hole Oceanographic who have been studying salinity out in 
the open ocean. As fresh water evaporates from the ocean, it's 
going to land on land, turn into snow and ice on land, and we 
can actually measure how much and predict much better what's 
going on on land by measuring salinity out at sea. So there are 
very strong ocean-land linkages.
    In terms of scale, I'm not here before you to recommend 
dollar values other than recommend large scale. This is the 
time. It's a big planet. The ocean is big. These are big 
problems. We've made sufficient progress to date maximizing 
what we're able to do with the resources provided to us, but 
it's a huge ocean and a large system. We need to tremendously 
increase the scale of investment. Thank you.
    Dr. Steltzer. Thank you. I'll focus on four points, three 
focused on adaptation first. Let's make sure that the local 
water managers across the U.S. have the resources they need to 
know how much water they have and when and how that water is 
filling reservoirs and streams. A lot of times the way that 
they make their decisions they don't have all the information 
they would need, and we could make sure that they have those 
resources. That would be an adaptation approach.
    The second one is that we can reduce other stressors so 
where and how do you develop a plan for the timeline and 
flexibility that you need to be adaptive and responsive to 
change, you make sure that you don't have 10 things that are 
stressful all at once.
    So what are some of those other stresses we can manage for? 
We can protect mountains and snowpack from dust. Dust on snow 
accelerates the rate that snow melts so much so that it's 
almost shocking when you see the numbers because it's 30- to 
60-day timelines that the snow has gone first. We know that 
that dust is U.S. dust. We know that that dust is not coming 
from China. You can characterize the isotopes in the dust and 
see that it's U.S. dust, and so actions that we take across the 
western U.S. to manage for dust across the Great Plains of the 
U.S. to manage for dust.
    The third one is increasing knowledge, the diversity of 
knowledge systems that we employ, and that means bringing in 
diverse people to these spaces and to all spaces where we're 
doing science. I teach at a majority minority-serving 
institution. Thirty-eight percent of the students at Fort Lewis 
College are Native American descent. There's a tuition waiver 
in place that provides for that. I have learned more from my 
students in 11 years of education, co-learning with them, and 
where and how can we create spaces that remove barriers to a 
more inclusive space for the diversity of wealth and knowledge 
within this country.
    And the fourth one that I wanted to make is about 
mitigation. I recently on Monday night learned about the CORE 
Act. That's something Congress has already supported, and I 
want to thank you for that. That is fantastic to look and see 
where and how we can put lands into new types of 
characterizations to manage for mixed use of land in new ways. 
Thank you for what you've done.
    Chairwoman Johnson. Thank you very much. I'm out of time, 
but I'm going to ask Mr. Shellenberger and Ms. Fransen if you 
will submit your response to my question if we don't get around 
to a second round of questions. And I thank you.
    I now recognize Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair.
    Mr. Shellenberger, just 10 years ago the idea that the 
United States would be a net exporter of oil and gas was almost 
unthinkable, and I think the last time we did that perhaps was 
about the time of my birth. And I would note to you my 
grandchildren believe that's a very long time ago.
    Then the shale revolution came along, led by Federal 
investments in basic research, and American industry made it a 
reality. And I've seen firsthand in my home State of Oklahoma 
how it all started with research and development at DOE's 
national labs followed by tax credits, market reforms, 
partnerships that led to private investment and innovation. 
Today, we're reducing emissions around the world with cleaner, 
more efficient American natural gas.
    Now, that said, it's my hope that nuclear power can follow 
the same pathway and contribute clean, reliable power around 
the world. Where are we as a Nation in advanced nuclear 
development, and how can we kickstart nuclear energy in the 
same manner as the shale revolution?
    Mr. Shellenberger. Thank you very much for that question. I 
actually did a significant amount of research on the historical 
origins of the shale revolution. And while there's a number of 
similarities, there's important differences as well. Obviously, 
you know, the biggest one with nuclear is just that it is a 
dual-use technology, and so the main obstacle to nuclear's 
expansion has always been the fears of its use to make weapons. 
And that's the main reason that I think most progressives and 
Democrats are concerned about it. That was the nature of my 
opposition to nuclear as a young man.
    I think where it's similar is the shale revolution occurred 
in the context of significant demand for natural gas. Natural 
gas has always been viewed as a superior fuel to coal just 
because of it burning much cleaner. It has half the carbon 
intensity of coal burning. So there was always a significant 
amount of demand for natural gas. We don't have that same 
demand for nuclear just because it's significantly less 
popular.
    I think the other big difference then is that when you look 
at what's actually succeeded for nuclear both in the United 
States historically and with what Russia and China are doing 
now is that you have heads of state directly selling nuclear 
power plants to other heads of state. It's a highly centralized 
activity. You have one or two firms. In the United States it 
was General Electric and Westinghouse. In China and Russia 
right now it's a single State-owned firm. If somebody calls up 
the Department of Energy in the United States and says I want 
to build an AP1000, which are the reactors that we're building 
out at Vogtle in Georgia, there's really not anybody--it 
would--you think it would be Bechtel, but Bechtel is only 
involved in that Vogtle project. They're not actively selling 
nuclear.
    So I think we've overemphasized the different nuclear 
technology designs, which just comes from a community that's 
very technically oriented. But what makes nuclear successful is 
when it's really embraced and pushed by both the White House 
and Congress. And we've got to be building nuclear power plants 
in the United States, or we're simply not going to be 
competitive abroad.
    Mr. Lucas. Expand just a little bit more on the concept 
about the antinuclear sentiment, which really first I guess 
came around in the 1960s and remains today? Can you talk about 
what's driving that fear and how the relationship to the 
broader discussion and some of the predictions about climate 
change, how all this interacts?
    Mr. Shellenberger. Nuclear is special, so we sometimes say 
we need all these different solutions for climate change--
carbon capture and storage, solar, wind, and nuclear--but 
nuclear is unlike the rest of those. This is a revolutionary 
technological development both in the dual nature of the 
technology, the incredible energy density of it, and I think 
that really we suffered--I think the whole human race suffered 
a kind of trauma and shock when we invented the bomb in the 
1940s.
    And then there was a lot of enthusiasm after ``Atoms for 
Peace'' in 1953 that we would sort of redeem ourselves for 
having invented such a horrible weapon with nuclear energy, so 
there's a lot of enthusiasm in the 1950s. But ultimately what 
happened is that the fears of nuclear weapons transferred 
themselves--just to use a bit of psychological jargon--onto 
power plants, and antinuclear weapons activists somehow 
imagined that shutting down nuclear power plants would rid the 
world of nuclear weapons.
    That's really never gone away. In fact, the apocalyptic 
concerns that we see around climate change today began with 
apocalyptic concerns around nuclear weapons. And as the cold 
war ended, really the people that were looking for some kind of 
secular apocalypse found it with climate change, which is why I 
think so much of the climate activists and environmentalists 
community is opposed to nuclear.
    So when you kind of get I think to the Chairwoman's 
question, what is the main obstacle to significant accelerated 
decarbonization? It's getting over our fear of this technology. 
Nuclear energy is a true blessing. It emits almost zero air and 
water pollution. In my view it's the only true replacement of 
fossil fuels. Renewables are just too energy-dilute and 
intermittent to be able to do that, so we need some kind of a 
shift in consciousness, and I think congressional leadership 
and White House leadership is really important to that.
    Mr. Lucas. Thank you, Mr. Shellenberger. And, Chair, as I 
yield back, in an indirect way I appreciate the endorsement of 
the panel about the conservation provisions in the 2014 and 
2018 farm bill. After all, we've worked since 1935 on the land-
use questions to try and preserve our resources. I yield back, 
Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. Lipinski.
    Mr. Lipinski. Thank you, Madam Chair. And thank you for 
holding this hearing today.
    This has been an issue--I was just talking to Mr. 
Perlmutter to say that I've been around here for a long time. 
It's an issue we've been talking about, I've been active on, 
and unfortunately we haven't done a whole lot to really 
address, you know, climate change.
    One thing that the U.N. Emissions Gap Report, one of the 
opportunities that the report recommends for the U.S. is 
introduction of carbon pricing. And that's something that I 
actually joined two Republicans 11 years ago in introducing a 
carbon pricing bill. And that's something that I really think 
that we need to take a very good look at as a way to do this 
and something that I especially encourage my Republican 
colleagues to take a look at as a market solution. We're 
putting a price that really is there. You know, carbon and all 
climate change gases do have an externality price that is not 
realized. And I think the government should put that on, take 
all that money, and that bill I introduced 11 years ago and the 
one I have this year gives all the money back to the Americans. 
So we have that opportunity.
    I really think we should fund ARPA-E (Advanced Research 
Projects Agency-Energy) to a much greater extent to help.
    I also introduced a bill, the Challenges and Prizes for 
Climate Act of 2019, to spur innovation. It directs the 
Secretary of Energy to establish climate solutions challenges 
in a variety of areas critical to addressing climate change, 
including carbon capture and beneficial use, energy efficiency, 
energy storage, climate resiliency, and data analytics for 
climate modeling and forecasting.
    So I want to ask Ms. Fransen, do you think such a prize 
incentive would be beneficial in spurring additional interest 
in the area of research and development to develop climate 
solutions?
    Ms. Fransen. Thank you for the question. So you've touched 
on I think two very important tools that can be part of a 
comprehensive policy package to address climate change. And to 
put both of those in a little bit of context, I think there are 
two things that we need to be doing at the same time. One is 
taking near-term action with existing technologies to generate 
very ambitious emissions cuts in this decade. If we don't do 
that alongside R&D (research and development) and innovation at 
the same time we will not solve this problem. It would be too 
long to wait. So we need to do both of those things just to be 
very clear.
    That being said, ultimately we need to drive global 
emissions down to net zero. We know how to do that in--across 
many sectors with many solutions, but the more that we can 
innovate and the more that we can support R&D, the broader and 
more cost-effective our suite of options will be. So absolutely 
incentives for innovation are a key part of this. Incentive for 
many of the innovations that you mentioned, including 
efficiency, carbon capture and storage, which we need to put on 
any remaining fossil fuels and industrial applications, and so 
on to get us to zero carbon energy as soon as possible. Thank 
you.
    Mr. Lipinski. Thank you. I wanted to ask Dr. Murray, can 
you comment on whether we should expect any kind of similar 
impacts on the Great Lakes as on the oceans or any other 
impacts that you want to talk about that climate change is 
going to have in the future on the Great Lakes?
    Dr. Murray. That's a very good question. Personally, my 
expertise is not in the Great Lakes per se, but I can speak on 
the fact that, as precipitation patterns change throughout the 
country even in the interior driven by the ocean, driven by 
weather, driven by other matters, the hydrology of the area is 
going to be changing. I do know that recently the Great Lakes 
lake level has been changing quite dramatically, and so on. But 
overall the Great Lakes are of course very important for our 
commerce and other matters. But the main driver on Great-Lake 
change is going to be the changing precipitation patterns.
    Mr. Lipinski. Thank you. I will yield back instead of going 
on with my last 15 seconds. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Brooks.
    Mr. Brooks. Thank you, Madam Chair.
    I have been looking at a study entitled, ``Fossil Carbon 
Dioxide Emissions of All World Countries'' 2018 report, and 
that's a publication of the Office of the European Union. So to 
the extent these numbers err, it's European Union's credit.
    And that report looks at a number of different countries, 
how much of the carbon emissions they are responsible for, and 
what their internal trendlines have been. And so I look at the 
European Union collectively from the year 1990 to 2017, and 
they, according to the European community, have had a drop by 
19 percent in carbon emissions. And the European Union is 
responsible for 10 percent of all world carbon emissions. So 
according to the European Union, they're doing pretty good.
    Then you look at the United States of America in that same 
report. The United States of America is responsible for 14 
percent of all the carbon emissions. Over this 17-year period 
of time, the United States has had 0.4 percent increase in 
carbon emissions. That's over the entire 17-year period. Since 
2007, over the last decade of this report, the United States' 
carbon emissions had dropped 14 percent. So it appears that the 
United States has held its own and more recently is actually 
cutting its carbon emissions.
    Then you move to India and China. India is responsible for 
7 percent of the total carbon emissions. Their carbon emission 
output has increased by 305 percent over that 17 years. China 
is responsible for 29 percent of the total world's carbon 
emissions, more than double the United States of America and 
almost triple the European Union. And over that 17-year period, 
their carbon emissions have gone up 354 percent.
    And so my question to each of you, 30, 45 seconds apiece, 
is what do you propose to stop India and China from emitting so 
much carbon? Dr. McElwee?
    Dr. McElwee. Well, the reason why we have global accords 
like the Paris Agreement is precisely for this problem. It's a 
global problem, and everybody contributes to it and everybody 
can be part of the solution.
    Mr. Brooks. Well, did those agreements force China and 
India to cut anything?
    Dr. McElwee. Right. The Paris Agreement is----
    Mr. Brooks. Well, not right----
    Dr. McElwee [continuing]. Primarily voluntary.
    Mr. Brooks [continuing]. That's a question.
    Dr. McElwee. Yes, it's primarily voluntary pledges, so it 
doesn't----
    Mr. Brooks. OK. It's voluntary.
    Dr. McElwee [continuing]. Require that.
    Mr. Brooks. So I'm asking what can we do to force them to 
cut their carbon emissions inasmuch as they are the principal 
problems of the increases in carbon emissions over the last 17 
years?
    Dr. McElwee. Well, we can also talk about historical 
emissions over a longer time period in which case the U.S. 
would be more responsible. But your point is exactly right that 
we have tools potentially to help these countries reduce their 
carbon intensity. This can rely on exporting some of our 
technologies that could help them reduce carbon intensity and 
carbon growth, but that requires us to take a leadership role. 
And so having us be part of the Paris accord----
    Mr. Brooks. OK. I heard encouragement, but I didn't hear 
anything that would actually cause them or force them to do it.
    Dr. Murray?
    Dr. Murray. I'm going to pass respectfully on your 
question, sir. I'm not an energy specialist nor a specialist on 
China or India or such matters that you asked.
    Mr. Brooks. Dr. Steltzer.
    Dr. Steltzer. I'm not an expert in international diplomacy, 
but I rarely take the approach of forcing my will on another 
person. I know that I can engage in constructive conversations, 
which I believe is the call and the ask of the meeting today.
    I did go to China this summer in order to understand the 
Qing-Zang Tibetan Plateau, the third pole of our planet, and 
what I experienced by being in China for 10 days straight with 
Chinese was incredible. They were----
    Mr. Brooks. OK. That's nice----
    Dr. Steltzer [continuing]. Welcoming----
    Mr. Brooks [continuing]. But that's not answering my 
question. I have limited time.
    Dr. Steltzer. It is building relationships.
    Mr. Brooks. Mr. Shellenberger, can you please give a 
response in the little time we have left?
    Mr. Shellenberger. We should absolutely not force poor 
countries to stay poor, which is basically what that would 
require. I mean, moving from wood and dung to burning fossil 
fuels is environmental and human progress. It would be 
unethical to punish poor countries and force them to stick with 
wood and coal. The reductions in emissions in the rich world 
are not done because we sacrificed. It's because we moved to 
natural gas. China and India will follow that same pathway by 
moving to natural gas. But it would be crazy and immoral to 
force poor countries to stay poor.
    Mr. Brooks. My time is expired. I'm sorry, Ms. Fransen. 
Maybe if the Chairwoman will allow you to answer, you may, but 
it seems to me that the major problem we have is China and 
India, and I didn't hear any answer as to how we're going to be 
able to cause them to control their problem that is emitting so 
much carbon. Thank you.
    Chairwoman Johnson. Thank you. Ms. Bonamici.
    Ms. Bonamici. Thank you to the Chair and the Ranking 
Member, and thank you to all of our witnesses today for your 
expertise. We know that every person on the planet benefits 
from a healthy ocean and a stable cryosphere, and 
unfortunately, there are some dire findings in the IPCC Special 
Report on the ocean and cryosphere in a changing climate. We 
know that the effects are being seen not only in the remote 
deep ocean floor but also in the most pristine arctic and 
mountain regions.
    But there's also opportunity. The same week that the IPCC 
released its Special Report, the High Level Panel for a 
Sustainable Ocean Economy released another report demonstrating 
how we can capture the power of the ocean and estuaries for 
effective climate mitigation. I am the Co-Chair of the House 
Oceans Caucus and also serve on the Select Committee on the 
Climate Crisis, and I'm committed to bold science-based 
policies that will reduce emissions and transition us to a 100 
percent clean energy economy.
    And last year after the IPCC report I led a group 
introducing a resolution that supports those findings. And then 
also thank you, Dr. Murray, for mentioning the bipartisan Blue 
Carbon for Our Planet Act, which I just introduced with 
Representatives Posey, Beyer, and Mast to strengthen Federal 
research on blue carbon and protect and restore coastal blue 
carbon ecosystems. We know that the oceans can be part of the 
solution.
    So, Dr. Murray, the IPCC Special Report demonstrated that 
some of the effects of the climate crisis on our ocean like 
ocean acidification, hypoxia, sea-level rise, and warming 
waters are already locked in. So in the short term, where are 
the Federal investments in ocean data and monitoring needed to 
support our frontline coastal communities in adapting to the 
climate crisis? And also, how can Federal policy better support 
those opportunities for the ocean like marine energy and blue 
carbon so we can use the ocean as part of the solution to 
mitigate the climate crisis?
    Dr. Murray. So thank you for that question, and also, 
Congresswoman, thank you for your support in your State of 
Oregon, Oregon State University with the regional class 
research vessels that they are investing in through the 
National Science Foundation, for example. That's precisely one 
of the many types of infrastructure that this country is doing 
very well to support.
    There are a number of infrastructure needs in the ocean-
observing realm to gather this critical data to address the 
questions that you ask, in addition to the ships and other 
mechanical hardware-type aspects, and this also refers back to 
Congressman Lipinski's earlier comments about ARPA-E and 
technological advancements. The ocean community is rapidly 
evolving and including very complicated ways of looking at the 
very large amounts of data that we're looking at with 
artificial intelligence and machine learning. We need 
technological advancements in batteries because the things that 
we have out in the ocean, deep-sea need power, so we need 
smaller batteries that are more powerful. And so innovation, 
investments throughout the sectors are going to help everything 
that we need to do in that range.
    Regarding some other aspects, overall, the image I want to 
get across here is that we have such high data-gathering 
density on land. And you look at the tremendous advances that 
the National Weather Service has been able to make from Federal 
advances. We don't have anything near that scale for the 
oceans.
    Ms. Bonamici. Right. We----
    Dr. Murray. That's the direction----
    Ms. Bonamici. And I really don't want to cut you off, but I 
want to get a question in to Dr. Steltzer as well.
    Dr. Murray. Thank you.
    Ms. Bonamici. Thank you, Dr. Murray.
    Dr. Steltzer, in your testimony you noted that abrupt 
permafrost thaw is a sudden destabilizing process in the 
Earth's climate system and that the only way to slow the 
process is to keep the Earth below 1.5 relative to pre-
industrial times. Ultimately, if we fail to reduce emissions 
below 1.5, then widespread thaw of permafrost could ultimately 
release tens to hundreds of billions of tons of carbon dioxide 
and methane into the atmosphere. So you suggested that every 
10th of a degree matters. Can you explain why that number is 
significant and what the potential opportunities are to 
incorporate the cryosphere into our adaptation and mitigation 
strategies? In 40 seconds.
    Dr. Steltzer. In 40 seconds. A 10th of a degree, the 
freezing point of water is at 0+ Celsius, 32+ Fahrenheit, so 
every 10th of a degree that you go over that you thaw 
something, you melt--you thaw permafrost, you melt ice. And 
stored carbon that is frozen, is carbon that isn't accessible 
by microbes.
    The work that I do in the Arctic has always been on the 
plant side to understand where and how plants pull carbon 
dioxide out of our atmosphere and put it into the soil. The 
microbes win every time. It's basic physiology of the organisms 
that are involved.
    So the second piece in probably 10 seconds was?
    Ms. Bonamici. Was can you explain what are the 
opportunities to incorporate the cryosphere into our adaptation 
and mitigation strategies?
    Dr. Steltzer. Snow. I only had a second.
    Ms. Bonamici. Thank you so much. My time is expired. I 
yield back. Thank you, Madam Chair.
    Chairwoman Johnson. Mr. Weber.
    Mr. Weber. Thank you, ma'am. Dr. Murray, I want to ask you 
a question in response to Mo Brooks' question that you said you 
really weren't an expert in, but you are an expert more so in 
how the climate is affecting the oceans. Is that kind of 
accurate? So assuming that the percentages that he quoted from 
the European Union are correct, with China polluting that much, 
do you think that negatively impacts the ocean?
    Dr. Murray. Most definitely. The carbon dioxide molecule 
knows no political boundaries. It's being cycled through our 
atmosphere into the ocean and into our plants.
    Mr. Weber. OK. Well, then you might want to do a little 
digging on China. I want to go to Mr. Shellenberger next.
    Mr. Shellenberger, there are some radical mandates and 
reforms that are disguised as solutions to the changing 
climate, Green New Deal comes to mind. Does that sound 
familiar?
    Mr. Shellenberger. I've written about it extensively.
    Mr. Weber. You've written about it extensively.
    Mr. Shellenberger. Yes.
    Mr. Weber. It is estimated to cost about $39,000 per 
household in electricity costs alone. Factor in the health 
care, transportation, and housing parts of it, and that one 
single piece of legislation is estimated to cost about $93 
trillion total, give or take a few hundred billion. Reckless 
spending in my opinion is not the answer.
    Let's use Germany as a model. They made a decision, as 
you're probably well aware, to phase out both nuclear and coal 
plants. They spent =32 billion with a B per year on renewable 
energy between 2014 and 2018. What do they have to show for it? 
A mere 40 percent of the electricity supply is now renewables 
and hardly any, zero decrease in emissions, hardly. Massive 
spending is not the answer. Radical reform is not the answer. 
Nuclear, who knew, just might be part of the answer. Would you 
agree, yes or no?
    Mr. Shellenberger. Absolutely.
    Mr. Weber. That's even better than yes. So my question to 
you is this. What are the major hurdles preventing nuclear from 
being the cost-competitive solution in the United States? And 
please don't say Democrats. We're in an open hearing here.
    Mr. Shellenberger. Well, the short version is there's a 
number of factors, but one of the main problems in the United 
States has been that we have many utilities, and what that 
means is that we've had many different operators and many 
different plant designs.
    So the economics of nuclear are really simple. The way that 
costs come down is by standardizing the same design and having 
the same people build it over and over again. That's the only 
way we know how to reduce costs, also by increasing the size of 
the reactor. That's what's worked to reduce costs in France and 
South Korea, even in some parts of the United States. So that's 
a major obstacle.
    And like I mentioned, it's also been the fear of nuclear, 
so the way that the antinuclear folks drove up costs was 
through lawsuits and regulatory ratcheting, which delayed 
construction and drove up the costs. So this is why I want to 
warn against--I think there's a lot of wishful thinking that 
we're going to get some new design that's going to solve these 
problems, but what really matters is a long-term commitment to 
building the same kind of reactor over and over again 
preferably with the same construction managers.
    Mr. Weber. Are you aware that with the argument that the 
problem is the storage of the waste? That's the major problem 
here? It's what we do in America. Of course, I'm sure you're 
watching the ongoing debacle about Yucca Mountain. I'm sure 
you've been paying attention to that. I did a little research, 
and there's many types, as you know, of radioactive waste. The 
United States only has one facility engaged in permanent 
disposal of nuclear waste, the Waste Isolation Pilot Plant in 
New Mexico, which permanently stores certain forms of 
radioactive waste generated by the DOE doing research on 
production of nuclear weapons. Are you aware of that?
    Mr. Shellenberger. Yes.
    Mr. Weber. So we've got to do better that we've got to come 
to a consensus on how we're going to handle this waste, and 
then we have the ultimate green energy. Would you agree?
    Mr. Shellenberger. I agree. And the only caveat I would add 
is that I think that the fear of so-called nuclear waste, which 
is just the used fuel rods, is, again, just a displaced anxiety 
around nuclear weapons. As an environmentalist, nuclear waste 
is the major environmental benefit of nuclear power plants--
when you go to take an environmental studies class, the first 
thing you learn is that the perfect environmental production 
methods store all of the waste at the site of production. Only 
nuclear does that. Solar panels create 300 times more waste 
than nuclear. It's all going to go to landfills.
    Mr. Weber. Say that again.
    Mr. Shellenberger. Solar panels produce 300 times more 
waste than nuclear. It's all going to go to landfills. Only 
nuclear, only nuclear contains all of its own waste product. 
The nuclear waste has never hurt anybody, never should hurt 
anybody. It can all fit on a single football field stacked 50 
feet high. As an environmentalist, this is the holy grail of 
energy production.
    Mr. Weber. Thank you for that. And Madam Chair, I yield 
back.
    Chairwoman Johnson. Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Madam Chair. And I was hoping we 
wouldn't get into kind of a confrontational conversation today 
and that the narrative would be positive, so let me just start 
with positives.
    So, Dr. Steltzer, thank you very much for your testimony. 
And everybody, thank you for your testimony. But you talk in 
terms of stories or narratives, and we have sort of past 
narratives. What narratives do you see potentially both good 
and bad going forward? What would you like to see be the 
narrative?
    Dr. Steltzer. What a fantastic question to be asked in a 
room that has on the wall, ``For I dipt into the future, as far 
as the human eyes could see and saw the vision of the world and 
all the wonder that could be.'' I see the wonder all the time. 
I live in the western U.S. You wouldn't believe how amazing it 
is where I live, especially when there's snow on the mountain 
tops. And, to be honest, when there's not snow in the valleys 
because you get the contrast and the pop of the landscape in 
different ways and you know what it feels like to be someplace 
tucked away warm with abundant water available.
    The opportunities we have are to include as many voices as 
we can, to work constructively together and to recognize that 
our choices should be ones that benefit as many as possible and 
also focus on reducing harm. One of the concerns I've had in 
some of what I've heard about nuclear is that we haven't talked 
yet about where the uranium is mined from. And I live in the 
part of the country where the uranium is mined from. I know 
people who have been impacted by past uranium mining, and I 
live in a watershed where three million gallons of acid mine 
drainage water came tumbling down.
    It is a really weird moment when your river is no longer 
the color water you're used to water being and instead it's 
orange-brown, rust. And that was iron. That was an impactful 
experience for the region.
    And so a part of the vision for the future is where and how 
can we manage to minimize trauma, the trauma that's caused by 
this feeling of uncontrolled changes, where and how can we have 
more people involved. So thank you very much. I'm sure somebody 
else might want to answer that question, too.
    Mr. Perlmutter. Well, let me just sort of follow up on 
that. I mean, I think the narrative that I'd like to see is 
that we recognize we got a problem. And part of the solution 
may be nuclear. Part of the solution is going to be efficiency. 
Part of the solution is going to be a whole variety of things, 
but it does start with a conversation. It does start with you 
meeting with Chinese scientists at the top of the world, OK? 
That's how it works. And time is of the essence. I think 
everybody on this panel agrees to that. Wouldn't you, Mr. 
Shellenberger, agree time is of the essence?
    Mr. Shellenberger. Yes, and I hope I conveyed that urgency 
in my remarks.
    Mr. Perlmutter. And it isn't as if nuclear doesn't have 
some drawbacks because we all have seen Fukushima, and the cost 
to the Japanese is untold still today. So there are pluses and 
minuses to all of this stuff.
    So, Dr. Murray, I'd like to talk to you for a second. I 
just saw--and I don't know, these numbers are just phenomenal, 
but analyzing data from the 1950s through 2019, the world's 
oceans in 2019 was .075+ Celsius higher than 1981 to 2010. And 
then he says that's 228 sextillion joules worth of energy, 
which they then say is equal to five atom bombs per second 
heating to the oceans. So can you talk about that a little bit 
about what's happening to the oceans and the increased 
temperature there?
    Dr. Murray. Yes, Congressman. I believe you're referring to 
a paper that was just recently published, and they document 
that, as has been well-known, that 90 percent of the excess 
heat is stored in the world's oceans. So they've also 
documented that the world's oceans in 2019 were the warmest in 
recorded human history and that each of the preceding decades 
was also the warmest up until that point in time. And this is 
important because, as the atmosphere warms, so does the ocean.
    And we don't have a good handle yet as to the global 
extent. We need to increase our certainties on what those 
values are. And then we also need to understand how much more 
warming and where in the ocean that will actually happen. As 
the ocean warms, it expands. Warm water is a little bigger than 
cold water, so the heating alone of the ocean is going to be 
contributing to a foot or so over the coming 70 or 80 years of 
sea-level rise, in addition to just the ice melting on land and 
running into the sea. We also don't understand how much more 
heat the oceans can handle and what parts of the ocean are 
doing that. So the atmosphere-ocean linkage is intimate, it's 
profound, and it's critical to our understanding and predicting 
the future.
    Mr. Perlmutter. Thank you very much. Thanks for your 
testimony. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Marshall.
    Mr. Marshall. Thank you, Madam Chair.
    My first question is for Mr. Shellenberger. Certainly I 
believe in an all-of-the-above approach when it comes to 
domestic energy production. How would you respond to those who 
believe that advances in renewable energy technologies have 
eliminated or will eliminate the need for energy and other 
traditional sources?
    Mr. Shellenberger. Thank you for asking that question, and 
I'll address some of this to Mr. Perlmutter, too, I think 
around the story. I think we have to understand that energy 
density of fuel determines the environmental impact, full stop. 
This is a physical process, so the energy density of wood is 
half that of coal. The energy density of a quantity of uranium 
is a million times higher than coal. So to the question of 
uranium mining, well, first of all, most of it is now in situ, 
underground. We don't actually dig anything up, but you're 
having--this amount of uranium or really two glasses' worth of 
uranium is enough uranium to power my entire life.
    So the question is, I mean, do we really need--you know, 
and this is the issue with renewables. Do you really need 
renewables if you have nuclear? Well, France did an experiment. 
It had 75 percent nuclear. It added a bunch of wind. In order 
to add all of that wind onto the grid, it had to increase the 
amount of natural gas it burned. It's carbon intensity went up.
    So I think we have to just ground ourselves in the fact 
that energy density of fuel determines environmental impact. 
Humans gradually move from energy-dilute fuels toward energy-
dense fuels----
    Mr. Marshall. If I could go back to my questions. Do you 
believe the advances of renewable energy technologies have 
eliminated or will eliminate the need for energy from other 
traditional sources?
    Mr. Shellenberger. No, and they can't because we can't make 
sunlight or wind more energy-dense, and we can't make them more 
reliable. Which is why a solar farm takes 380 times more land 
than a nuclear plant. It's just not going to change.
    Mr. Marshall. OK. Next question also for Mr. Shellenberger. 
If you could comment on suggestions by recent articles that 
aggressive efforts to pivot to clean energy sources such as 
outlined by the Green New Deal might dramatically increase 
energy prices for consumers? You know, as the obstetrician, 
young couple starting off, that energy bill, the electricity 
bill was a big chunk of their income. What do you think things 
like the New Green Deal would do to energy prices for 
consumers?
    Mr. Shellenberger. Yes, what we know is that significant 
deployment of solar and wind increase electricity prices and 
increased electricity prices in Germany by 50 percent. They now 
pay about 50 percent more than their neighbors. We saw that in 
California. Our electricity prices went up 7 times more than 
the rest of the United States because of our integration of 
renewables. There's no mystery as to why. To integrate 
significantly unreliable electricity onto the grid you have to 
have 100 percent backup usually from natural gas or some other 
source of energy.
    And of course, as you point out, raising energy prices, 
like increasing the price of food, is regressive. The people 
that suffer the most are the poor and the working-class. So 
anything that increases energy prices is going to be regressive 
and harmful to working-class and poor people.
    Mr. Marshall. OK. I stay with you I guess for my last 
question. See if you would kind of agree with this philosophy. 
To me, the greatest determinant of the carbon footprint of this 
world over the next decade or two will be the world economy, 
that if we have a strong world economy, we can do things like 
provide infrastructure for natural gas. To your point, in a bad 
economy, people burn wood, very energy light, versus being able 
to burn natural gas, which is going to be more efficient and 
more energy-dense. Do you have any comments on that concept?
    Mr. Shellenberger. Well, you're right in the sense that we 
decarbonize along with economic growth. The idea that we need 
to have less economic growth in order to decarbonize is not 
grounded in reality. It's not grounded in historical fact. 
Obviously is terrible for political economy and it's the reason 
why climate change legislation, cap-and-trade legislation 
failed is because people didn't want to increase energy prices. 
What we saw is that American consumers benefited to $100 
billion a year thanks to cheaper natural gas prices, so our 
emissions from electricity have been going down thanks to a 
cheap and abundant natural gas as our electricity prices have 
been going down from cheap natural gas.
    The French are not poor. They're the most decarbonized 
economy, next to Sweden, the most decarbonized economy. They're 
not poor because they've slashed their emissions and 
decarbonized their energy sector. Wealth and decarbonization go 
hand-in-hand.
    Mr. Marshall. Yes, thank you so much, and I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Tonko.
    Mr. Tonko. Thank you, Chairwoman, for holding this hearing, 
and thank you to all of our witnesses.
    Climate science should inform Federal action. Science and 
research should guide us forward and be the foundation for our 
action. And, as we know all too well, inaction is incredibly 
costly. There is a cost to inaction.
    So, Dr. McElwee, thank you for your testimony on how lands 
can be an important climate solution. Can you give us a sense 
of either the global or U.S. potential of land use to be a net 
sink of greenhouse gas emissions?
    Dr. McElwee. Yes, when we talk about land, we talk about 
land as being both a source and a sink, so we do generate some 
greenhouse gas emissions from the land sector, and we can be 
reducing those. But the great advantage is that sink capacity, 
and that can make up for some of our emissions in other 
sectors. As I said in my written testimony, it can't make up 
for everything, but it can help us get to some of these targets 
that we want to achieve.
    So I mentioned, for example, that natural climate solutions 
can get us a substantial way toward goals of reducing emissions 
by 2030, very quickly. And what those entail are basically 
using our natural resources like soil and forests and 
grasslands and so forth and reducing any emissions that are 
coming from there and encouraging their sink capacity.
    So our report talks about a number of those actions that 
have a substantial ability to bite into those carbon emissions. 
And so in our report we lay out things that have on the order 
of potential 3 gigatons per year going up to 2050, and those 
include increasing soil carbon sequestration and includes 
tackling global deforestation, preventing that, land-use 
conversion of high-carbon lands like wetlands and peatlands. 
That contribute to the problem. We lose their sink capacity. So 
if we do things better in terms of conserving natural lands, 
increasing soil health, improving our agricultural lands, 
that's going to get us a pretty substantial chunk of carbon 
emissions. They're not insignificant. And they often come at 
low cost. That's the bonus.
    Mr. Tonko. Thank you. And, Dr. Steltzer, we often hear that 
the Arctic is a hotspot for climate warming. In fact, in a 
recent briefing I learned that rapidly rising Arctic air 
temperatures are thawing soil that has been frozen for 
millennia. And because of that, the Arctic is undergoing 
massive landscape-scale change. Do these changes impact the 
ability for land to sequester carbon?
    Dr. Steltzer. The warmer soils lead to microbes in the soil 
using the carbon that's there. And though the plants are 
growing more, they can't grow at a rate that pulls enough 
carbon in to balance what is moving out from the microbes using 
the carbon that's in the soil.
    The other piece of the Arctic story is the part of a lot of 
land change, and that's when places get drier, they burn, and 
burned places don't have the vegetation to be the carbon pump 
that year or the next year. Tundra landscapes can regrow. They 
take much longer than forests to regrow.
    Mr. Tonko. So if we want to make the most out of our 
agricultural and forest sectors as climate solutions, it seems 
to me we need to get to work immediately.
    Ms. Fransen, the 2019 UNEP Emissions Gap Report, which you 
were a lead author, describes opportunities to enhance ambition 
and action on the climate crisis, specifically the 
contributions of G20 members. It directly addresses the G20 
stating G20 members urgently need to step up their commitments 
on ambitious climate action. What do you project will be the 
effects of other G20 nations if the United States adopts the 
ambitious nationally determined contributions in order to meet 
its long-term strategy?
    Ms. Fransen. Thank you. Historically, the U.S. has been 
able to play a constructive role internationally through 
diplomatic efforts engaging countries like China around making 
climate-change commitments. So we saw this in the leadup to the 
Paris Agreement where, through U.S. diplomacy, China came to 
the table and committed to peak its emissions by 2030. They're 
now on track to peak in advance of that.
    So I think that, as well as many other examples, show that 
when the U.S. is engaged on this issue as a leader, it can play 
a strong and constructive role in bringing other countries to 
the table and getting good rules in place internationally that 
promote transparency, accountability, robust market mechanisms, 
and so on to solve this problem.
    Mr. Tonko. Thank you. With that, Madam Chair, I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Baird.
    Mr. Baird. Thank you, Madam Chair. Thank all the witnesses 
for being here.
    You know, it's been a long time since I used the formula to 
convert centigrade to Fahrenheit, so it was reassuring to me 
that you take Fahrenheit is equal to centigrade times, what, 9/
5 plus 32. Water still boils at 212+ Fahrenheit and 100+ 
centigrade, so I thank you for making me review my background a 
little bit on that.
    But, Mr. Shellenberger, earlier this year, I had the 
privilege of attending the unveiling of Purdue's little small 
nuclear reactor, and they went all digital. But it would appear 
to provide the way for big data applications and increased 
reliability and so on. So in your testimony you say that if 
nothing changes, China will surpass the U.S. in installed 
nuclear capacity by 2030 and Russia by 2034.
    So here's my question. Could you elaborate on the 
investments in technologies like that we're developing there at 
Purdue and help give us an advantage in this global 
competition, as well as if the U.S. develops advanced reactors 
or small modular reactors, how much of an international 
advantage would that give us? And is that the type of 
technology that is best suited to be exported?
    Mr. Shellenberger. Thank you, sir, for that question. What 
I want to stress about advanced nuclear technologies and 
nuclear technologies is that they are at risk of becoming 
orphans without a national nuclear program, without something 
like a green nuclear deal. And so China and Russia are also 
developing small modular reactors. They're also developing non-
water-cooled reactors, ones that use molten salt or liquid 
sodium reactors like we've developed.
    So when countries make decisions about who to partner with, 
they're actually choosing countries based on which countries 
have the most experience building those reactors. As a 
policymaker, I'm sure you can understand if you're looking to 
make a big investment with taxpayer funding, you want to go 
with the tried-and-true management, as well as design.
    And so my concern is that these promising new reactor 
technologies we're developing that we're not really set up at 
all to be competing with the Chinese and Russians. We need our 
Head of State selling them to compete with Putin and Xi, who 
are aggressively selling them. We need to have the right 
financing for countries. And when they say to us now who would 
build this plant for us, we don't have an answer. The answer 
needs to either be Bechtel or some other major construction 
firm, and right now we sort of say to them, hey, you can pick 
whoever you want. When you go to Russia or China, they say 
here's exactly how it will work. Here's the people that will 
build it. Here's the financing for you to build it.
    And, like I mentioned, you know, this is a very special 
technology. It's a dual-use technology. The U.S. Government has 
always understood that the United States needed to be leaders 
on nuclear. And right now I worry that we've engaged in a kind 
of wishful thinking that somehow some new technological 
breakthrough will make the difference when in fact our 
technological breakthroughs just aren't that different from the 
technological breakthroughs that we're seeing in Russia and 
China.
    Mr. Baird. Thank you. I would like to have you add on to 
that. You know, of the technologies that we have right now and 
if we could fully develop some more of those, what's the 
potential for nuclear energy to supply what percentage of our 
energy needs around the world?
    Mr. Shellenberger. I mean, I believe that eventually we 
will be 100 percent nuclear. It may not be for another 200 
years, but it's such a clearly superior energy technology. I 
think that is eventually what will be. Obviously, you know, 
France has proven that it can be 75, 80 percent nuclear without 
any problems. The United States was headed toward 50 percent 
nuclear. The antinuclear movement succeeded in killing half of 
all reactors, a little over half, so today we get 20 percent. I 
think it would be a perfect goal to have to get the United 
States back up to 50 percent nuclear.
    The market right now Russia and China have order books of 
about $150 billion for new nuclear builds. This is great 
business. These are big construction projects, high technology, 
well-paying jobs. I find myself very concerned by the ways in 
which we're sort of sleepwalking into third place in this 
global competition.
    Mr. Baird. Thank you. And I see I'm almost out of time. 
But, Dr. McElwee, I would like to have you elaborate more at 
some point, not now, about agriculture because of my background 
in carbon storage and covered crops and so on. So thank all of 
you for being here, and I yield back.
    Chairwoman Johnson. Thank you very much. Mr. McNerney.
    Mr. McNerney. Well, I thank the Chair and I thank the 
witnesses. I appreciate your testimony and your work in the 
field.
    The planet is continuing to warm, and unfortunately, I 
believe that we're going to blow past 2+ centigrade. While we 
must drastically reduce carbon emissions, I firmly believe we 
need to explore all the possible tools that we have at our 
disposal. And that's why I recently introduced the Atmospheric 
Climate Intervention Research Act, which authorizes NOAA 
(National Oceanic and Atmospheric Administration) to advance 
research on atmospheric climate intervention modeling and 
technologies. NOAA is already active in observing and 
monitoring atmospheric chemistry and dynamics. My bill will 
help them expand that effort.
    Dr. Steltzer, do you believe that we have the capabilities 
needed to accurately and fully monitor changes in the Arctic 
and cryosphere, particularly with regard to rapid changes or 
approaching tipping points? Do we have the ability to 
understand that yet?
    Dr. Steltzer. That's such an interesting question to be 
asked. Thank you. I mean, I'm a scientist, so I feel like I 
have to give the science answer, which is that we will never 
fully understand the complexities of our Earth. And, you know, 
I apologize if that sounds like then why try, but of course we 
will always try even if we know that we're trying to solve the 
biggest puzzle ever. And we will bring everyone to the table.
    So I think that where and how we move our understanding of 
the Arctic forward the fastest is to work collaboratively with 
other countries that are also working to understand the Arctic 
because some places will change in different ways than other 
places. It's a big, big, vast region. We need to understand the 
land and the sea. And we want to reach out to the people who've 
long lived there. And we want to understand where and how their 
knowledge systems contribute to our understanding of what 
patterns have they seen of change.
    A Yupik woman once said to me while we were walking across 
the tundra--and the Yupik are the native people of the western 
part of Alaska. She said to me, ``When we lose the lakes, we 
lose the sky.'' And there is an incredible amount of 
understanding packed into that that gets the physical, 
chemical, biological processes change that happen when you lose 
lakes across the landscape.
    Mr. McNerney. Well, how fast are the Arctic and cryosphere 
changes moving relative to the modeling of those changes? In 
other words, are the models keeping up with the rate of change?
    Dr. Steltzer. I'm not sure. I'd have to get back to on that 
one. I'd like to get back to you on that one.
    Mr. McNerney. OK. This is a question for all of you. Given 
the complexity of climate system and the risks associated with 
further human interference, would you agree that additional 
research is necessary to understand the stratosphere and how 
the stratosphere is changing? Just answer with a yes or no.
    Dr. Murray. Yes.
    Mr. McNerney. Dr. Steltzer?
    Dr. Steltzer. It's not my area of expertise. I don't know.
    Mr. Shellenberger. Sorry, I don't know either.
    Ms. Fransen. Neither do I.
    Mr. McNerney. Well, thank you. Well, we were very 
successful in reducing refrigerant pollution using the Montreal 
Protocol over the past few decades, and they say that that 
resulted in the greatest reduction in radiative forcing 
associated with greenhouse gases of any human efforts to date, 
so reducing short-lived but strong greenhouse gases strategies 
is sometimes referred to as fast mitigation and has the 
potential to help reduce warming in the near term. How adequate 
are investments in this sort of approach, Dr. McElwee?
    Dr. McElwee. As I mentioned in my written testimony, one 
place where we can be doing a better job is on methane, which 
is one of our shorter-lived greenhouse gases. And we definitely 
need more research in this area. So one of the things that's 
been a subject of scientific debate recently is trying to 
explain some fairly dramatic increases in methane emissions 
over the last decade or so.
    And we are using different tools to do that. We're trying 
to figure out are these coming from, for example, releases from 
fossil fuels, so fugitive methane that's coming out of fossil 
fuel extraction? Is it biogenic sources? And so we need 
research on all of those areas particularly around how our land 
sources may be contributing to this increase. This might be one 
of these climate feedbacks where we're beginning to see, for 
example, additional methane releases from, say, tropical 
wetlands that we really need to monitor and understand more 
carefully.
    Mr. McNerney. OK. Thank you. I conveniently ran out of 
time. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Murphy.
    Mr. Murphy. Thank you, Madam Chairwoman. Thank you guys for 
coming out today and sharing your expertise with us. It's very, 
very important that we hear from you.
    I just want to give a few thoughts. I represent a coastal 
district in eastern North Carolina, and so I understand the 
importance of addressing this issue. Geological evidence has 
shown that the climate on this Earth has changed for billions 
of years. In fact, my home State in North Carolina, Raleigh is 
smack-dab in the middle of the State, and the geological 
evidence shows that the coastline was there 100,000 years ago. 
It happens. I mean, we've been doing this for billions of 
years.
    I'm a surgeon, I'm a scientist, so I don't deny facts. 
We're dealing with a real issue. But I believe that, you know, 
God created this Earth. He created it for us to enjoy its 
resources but also to balance our ability to manage those 
resources. And it's important that we invest in a large number 
of alternative technologies, and nuclear hands-down is where we 
need to go.
    My questions then run around the fact that, you know, the 
U.S. has led the world in decreasing our carbon emissions. You 
know, it's said that we have to be the world's leader. Well, we 
are. The problem is that the world's worst actors: China, 
India, Russia, are actually increasing rather than decreasing 
their emissions. And so it's not to say that we're not making a 
difference, but if these bad actors are doing what they're 
doing, are they nullifying everything that we're doing?
    You know, I think an overlooked issue this morning has been 
one that we need to deal with. It's called mitigation and 
adaption, which we as humans, that's what we do. And so, you 
know, a great example, the Netherlands, been there multiple 
times. They've lived 15 feet underwater for the last 300 years. 
We need to learn from them. We can't just stick our head in the 
sand and say that our changes are going to change everything.
    And so I think that this Nation needs to look toward 
innovation rather than running around with our head on fire to 
actually do what we can to continue to live on this Earth with 
five and six billion people.
    So with that said, just have a couple of questions, first 
one directed toward Dr. Steltzer if you would. And it's not 
meant to be an animus question by any means, but if we were 
able today in the U.S. to decrease our emissions to zero, how 
much time could we buy? I mean, with what's going on in the 
Earth and what's happened for billions of years, what are we 
looking that we could actually buy?
    Dr. Steltzer. I don't know that I can give you a number on 
that, but I'd say that if we did what you just proposed, we 
would be good neighbors. And one of the pieces of the oral 
testimony I didn't have time to talk about is that that's one 
of the visions I have is where and how can the U.S. play a role 
as a good neighbor, putting forward an example that we want 
others to follow. And that doesn't mean zero today, zero 
tomorrow, but that means that we continue to do what we can to 
decrease our fossil fuel emissions.
    And we support the sharing of the technology and expertise 
that we have with other countries to encourage and support them 
in doing what they can do.
    I think most people want to see--this gets at what Mr. 
Perlmutter asked me earlier. Most people want to see us working 
together within a country and across countries and doing what 
we can to minimize harm to people. And we just need to motivate 
the spaces and places where we can do that. Thank you.
    Mr. Murphy. I would agree completely. The problem is we 
have people in this world--China, Russia, India--that don't 
give a hoot about what we're doing. And so we're fighting that. 
We're really fighting that. It would be great if, as we're a 
good neighbor, that they would be good neighbors, too, but 
they're not.
    Final question to Mr. Shellenberger. Can you just give a 
quick 30-second illustration of fission versus fusion, and 
wouldn't it be great if we could get to fusion? And when are we 
going to get there?
    Mr. Shellenberger. I mean, honestly, I have an unorthodox 
view on this, which is that I think fusion is probably 
inevitable. I don't think it's anytime soon. It could be 
hundreds of years away. And I don't think that the advantages 
are all that greater over fission. I mean, fission already--we 
radically dematerialized, decarbonized with fission. You know, 
like I said, I don't think it's a technological problem. I 
think it's more of a consciousness problem, a fear problem, an 
institutional problem. I still support R&D for fusion. I just 
don't think it's the holy grail that a lot of other people 
think it to be.
    Mr. Murphy. All right. Thank you. Thank you, Madam Chair. I 
yield back.
    Dr. McElwee. May I comment on the China-India good neighbor 
question?
    Mr. Murphy. I yield my time.
    Chairwoman Johnson. Yes, go ahead.
    Ms. Fransen. Thank you. I just wanted to build on Dr. 
Stetzer's points by noting that since the dawn of the 
Industrial Revolution the U.S. has emitted twice the carbon 
that China has and about six or seven times the amount that 
India has.
    And I would also note that by going to zero emissions 
rapidly, we can improve health outcomes in the U.S. We can 
increase U.S. competitiveness through innovation by building 
technologies for which there is going to be a $23 trillion 
market around the world. So this is very much in our interest. 
Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Crist.
    Mr. Crist. Thank you, Madam Chair. And I want to thank the 
witnesses for being here today.
    As all of you know, my home State of Florida has been 
ravaged in recent years by outbreaks of harmful algal bloom. 
Dr. Murray, can you discuss the connection between climate 
change and increasingly severe outbreaks of blooms such as red 
tide?
    Dr. Murray. In general with the increasing population 
density along the shoreline, an the increasing amount of 
nutrients that are going into the water and with the warming 
waters in general, those experts tend to predict that there 
will be increasing amounts of harmful algal blooms.
    Mr. Crist. Just this past weekend I held a red tide 
roundtable in my district in St. Petersburg where I brought 
together scientists, State and local officials, business 
owners, other stakeholders to discuss ways to tackle this 
crisis. And one of the things I heard from the panel was that 
if we could generate more accurate predictions of where and 
when blooms will occur if we had expanded observation systems. 
Again, Dr. Murray, can you discuss our current ocean-observing 
capabilities, how they support algal bloom prediction, and what 
additional capabilities might be needed?
    Dr. Murray. Harmful algal blooms by most measures are most 
impactful on us right along the coastlines. And the coastlines 
from the water perspective are surprisingly hard to monitor and 
set up long observation systems in. We have a fair bit of stuff 
that is a little further offshore, but looking at how the ocean 
currents are moving up and down the coasts in that critical 
interface zone is surprisingly difficult. There is some land-
based techniques with various imaging systems looking out to 
sea that are very helpful on understanding ocean circulation, 
air-sea interactions, but again, we need more of those.
    A large issue, a potential answer to your question as well 
as to some of the ones from Congressman Murphy regarding 
mitigation-type things along the coastline, you know, in terms 
of the physical impacts of sea-level rise but in terms of the 
chemical impacts of nutrients going in, we need to do a better 
job in our sewage treatment plants inputs, our local 
infrastructure, which are all going to be impacted by rising 
sea level.
    I live in a coastal community in Massachusetts, so I'm very 
aware of what happens when sea level is rising, temperatures 
are warming, and there's a whole domino effect of what's going 
on. We can pick on harmful algal blooms; we can pick on sea-
level rise. All these things are all related. Coastal 
ecosystems is storage of blue carbon is helping us mitigate 
inputs of pollutants and nutrients. All these things are 
related, chemical, biological, and physical.
    Mr. Crist. Thank you. Another thing I heard at the 
roundtable is that translating science from the observing arena 
to the operations arena can be a challenge, and the critical 
information can get lost in the translation. How could we 
better move scientific data from the research and observation 
side to the applied side so that local officials and general 
public can best be informed as to when and where algal blooms 
will occur?
    Dr. Murray. There I would speak to the importance of making 
data readily available and readily available by the 
decisionmakers of the communities, the municipalities along the 
shoreline. So what the predictive models are on sea-level rise: 
Where, how fast, what type, bringing in wave energy, and so on, 
but having that data available and available in a way that 
people can use, so NOAA, the U.S. Geological Survey, NASA 
(National Aeronautics and Space Administration). When I was 
advising with OSTP, we worked very hard on making sure that 
those agencies were communicating with each other and coming up 
with consistent data sets and visualizations that the local 
city owners and city managers and so on could work on. But I 
would really focus on the data aspect.
    Mr. Crist. The Union of Concerned Scientists recently 
released a report on extreme heat across the U.S. According to 
that report, the United States can expect a number of days with 
the heat index above 105 degrees to quadruple by the midcentury 
and increase eightfold by the end of the century. For example, 
in my district of Pinellas County, Florida, has a historical 
average of 1 day per year above 105 degrees. According to this 
report, that average is expected to increase to 77 days by 
midcentury and 123 days by the end of the century. That's over 
1/3 of the year.
    Dr. McElwee, can you describe the potential impacts that a 
sharp increase in the number of extreme heat days will have on 
the economy, particularly as it relates to outdoor workers and 
tourism in places like Florida?
    Dr. McElwee. Certainly. We know that extreme heat events, 
as you say, are projected to increase. The evidence is very 
clear on that. And so with that comes a number of health 
impacts. So obviously there's heat stress on people who have to 
work outside. Mortality in general goes up when we're outside, 
and so we're concerned about all of those issues.
    But let me also point out that what we're seeing, for 
example, in Australia right now with the extensive bushfires, 
they have had similar days. In fact, it's been over 40+ Celsius 
in some parts of Australia for an extended period. And those 
create the conditions for wildfires to start and extend. And so 
we have multiple things that are related to these extreme heat 
events also related to agriculture. Extreme heat can have an 
impact on our crop yields and so forth. So there's intersecting 
issues, but you're absolutely right. This is one area where the 
science is extremely clear that we are very confident that 
these are associated with anthropogenic climate change.
    Mr. Crist. OK. Thank you very much.
    Chairwoman Johnson. Thank you. Mr. Babin.
    Mr. Babin. Thank you, Madam Chair. And I want to thank the 
witnesses for being here as well. Fascinating stuff.
    And it looks to me like from what I hear, and I've read a 
lot of your stuff here, Mr. Shellenberger, that nuclear may be 
the only way that we can get off of the dependence on fossil 
fuels or, because obviously the renewables don't seem to cut 
the mustard.
    But the U.S. has always been the leader in nuclear power 
construction in the past for safe and reliable nuclear plants. 
I noticed that China and Russia are leading in the number of 
plant construction around the world, and many other nations are 
kind of saddling up to them and dependence on these two nations 
when we build a better plant. So if that's one of the problems, 
the price tag of clean energy is so high right now, at what 
point do you see clean energy becoming cheaper and more viable? 
And is it going to be a reversal of the trend that we're seeing 
on nuclear here in the United States?
    Mr. Shellenberger. And when you say clean energy, are you 
referring, sir, to nuclear in specific or are you saying all 
low-carbon energies, including renewables?
    Mr. Babin. I would say well, I was talking specifically 
about the nuclear end of it because you had had so much in your 
documentation here that I was reading about. So I would say 
that. You can throw in the other ones, too. I'd like to hear 
what you have to say.
    Mr. Shellenberger. Sure. I'll give you one study we did 
where we calculated that. Had Germany spent the 580 billion 
it's estimated to spend on renewables by 2025, had it spent it 
on nuclear, it would already be at 100 percent zero emissions 
electricity, and it would have completely decarbonized its 
transportation supply, a similar case in California, so it's 
very easy to do those calculations.
    The challenge for nuclear is that it requires national 
level commitment from the top. It really requires the President 
to be a leader on it. It requires significant congressional 
leadership. I would note that, for example, Russia also has 
abundant natural gas supplies, and what it's choosing to do is 
replace its use of natural gas domestically with nuclear power 
plants and export its natural gas abroad. That seems like a 
great recipe for energy dominance. It seems like that would be 
the heart of an energy-dominant strategy internationally and 
one that the United States would do well to follow. But again, 
it really requires this kind of long-term national commitment.
    Mr. Babin. Absolutely. We hear a lot of extreme rhetoric. 
In fact, some of us Republicans, you know, the claims that 
we're climate-change deniers, and nothing could be further from 
the truth. I've got a science background myself. I'm a dentist 
with a biology degree and studies in science. And I can tell 
you that we know that the climate is changing. There's no 
question about it. No district has been hit any harder than 
mine down in southeast Texas by hurricanes and floods, so we 
know things are happening.
    But we also hear some of this extreme rhetoric. 
Civilization will end without radical action. Children are 
suffering from eco-anxiety and depression. And I read where no 
credible scientific body has ever claimed that climate change 
threatens the collapse of our civilization or the extinction of 
Homo sapiens. And yet we hear politicians and the media are 
making these claims. I'd like to hear your opinion and tell me 
what you're thinking about that.
    Mr. Shellenberger. Thank you for asking that question. And 
it's very troubling, the rise of this rhetoric. It's obviously 
been around for several decades, but it's become much more 
acute in recent years. What we've done is we went and 
interviewed the scientists who activists told us they were 
relying on for those catastrophist claims. Four of the 
scientists we interviewed all claimed that they were misquoted. 
One of them told us that it was based on his best estimation 
that the world could not sustain half of its human population 
at a 4 degree temperature rise. We asked him what that was 
based on, and he said it was just him speculating.
    In fact, there are studies by the Food and Agricultural 
Organization, and the major factors that determine how much 
food we will grow--because the only way you can really come up 
with collapse-of-civilization scenarios is with a collapse of 
food supply--that the major studies show what determines food 
output in the future is the same thing that's determinant in 
the past, which is whether poor countries have access to 
fertilizer, irrigation, and tractors. And so if we're really 
concerned about sub-Saharan Africa, for example, or South Asia 
where people are much more vulnerable and dependent on nature, 
on less resilient, then we should be helping them to 
industrialize agriculture, to urbanize, to gain access to 
factories. That's already starting to happen in Ethiopia. It 
should happen on the rest of the continent.
    So what bothers me is the way that this apocalyptic 
discourse is used to justify denying poor countries cheap 
baseload electricity not just from fossil fuels but we've also 
seen this effort to stop poor countries from getting large 
hydroelectric dams and large nuclear power plants.
    So what I always say to my colleagues as if you're so 
worried about denial, then I think you should stop trying to 
deny poor countries the cheap, reliable sources of electricity 
and energy that they need in order to survive a hotter world.
    Mr. Babin. Absolutely. And my time is expired. And I for 
one am very happy that we had the availability of fracking and 
the increased production of natural gas in my home State, which 
has led to energy independence for the United States and the 
lowering of emissions and been very, very significant. So thank 
you, and I yield back.
    Mr. Shellenberger. Thank you, sir.
    Chairwoman Johnson. Thank you. Mr. Lamb.
    Mr. Lamb. Thank you, Madam Chairwoman. And I want to thank 
all the witnesses for coming to be with us here today.
    Mr. Shellenberger, you're getting a lot of attention, and I 
have to say I'm very happy about that. The district that I 
represent in western Pennsylvania is the home of the original 
Shippingport nuclear power plant, the first civilian reactor 
built in the United States as part of the same program that led 
us to build reactors for our oceangoing vessels in the Navy.
    And in my office I have a picture of President Eisenhower 
waving this--well, it was actually a fake wand. He did a little 
press event to show the start of the construction of that, but 
he was somewhere else at the time, and he waved a wand, and the 
first backhoe or whatever started moving dirt at Shippingport. 
So we have a plant there now, Beaver Valley, which is at risk 
of being closed.
    You know, nuclear, in a lot of ways the lack of support for 
it at our Federal Government shows a lot of the things that are 
wrong with Washington in that it has no natural friend on the 
side of those who consider themselves the environmental left. 
But frankly, it also has been kind of unfairly targeted and 
undermined by certain fossil fuel lobbies. And in our own 
State, natural gas has become so cheap that it makes it 
difficult for nuclear to compete without any sort of support. 
And people make it seem like the request for support is kind of 
an unfair thumb on the scale, which couldn't be any further 
from the truth. I mean, nuclear just does something that 
natural gas does not do, which is produce energy without 
carbon. And it does not get compensated for it at all.
    And so, you know, we're left with the support for nuclear 
being among scientists, you know, people who aren't either on 
really the right or left but simply the side of the facts, and 
so I thank you for presenting those so well today.
    In addition to the scientific facts, I just want to point 
out some social facts about nuclear power, which is that it 
employs tens of thousands of veterans and union electricians 
and union construction workers in my State already. So we're 
not talking about the future potential of renewable energy, for 
example, to create as many jobs as it may erase. We're talking 
about people who are already working and earning good middle-
class salaries and raising their families based on this 
technology, which was invented by our government for an 
idealistic and environmental purpose. And I know you know that, 
but I just want to make sure that the jobs angle is included.
    And to my friend Mr. Brooks who was asking about what do we 
do about India, China, Russia? At least with respect to India, 
one of the things we do is sell them nuclear energy. And you 
started to point that out today, but I think on a grander scale 
I've been told that we're looking at about a trillion-dollar 
export market probably, maybe more, that will go to someone. So 
this is $1 trillion worth not only of the construction workers 
who go to build the plant and the designers but the people in 
my State who make all the parts.
    There's a manufacturer in my State who does about half its 
business for civilian nuclear reactors and half for the Navy. 
And when I visited, they told me this hilarious example where 
when the Chinese come to buy replacement parts for their 
AP1000s that they have, they literally have to put sheets and 
blankets over the Navy equipment that they're making in the 
same warehouse so they don't steal our naval technologies. So 
this really exists that we have a manufacturing economy related 
to this.
    And if we want to preserve those jobs and increase them by 
selling this stuff domestically and overseas, you've talked 
about the President being a salesman. I think that works for 
the overseas market, but for the domestic market, any ideas in 
the minute and a half I have remaining on what we would 
actually do to make it economically feasible again? Is it 
purely deregulatory? And if so, you know, what are a couple of 
the most important things we can do? Go ahead.
    Mr. Shellenberger. I mean, I think the most important thing 
is a national Green Nuclear Deal so that this is not just 
advocated by people that happen to have a lot of nuclear in 
their States or districts. Exelon, which is one of the biggest 
operators of nuclear plants in the United States, is seeking 
some sort of subsidy. My view is that any subsidy for nuclear 
should be in the context of a nuclear growth strategy. Right 
now, the official strategy of the U.S. nuclear industry is of 
managed decline. I think that's unacceptable. I don't think 
it's any taxpayer interest to subsidize an industry that is 
committed to decline. We need to have a growth strategy.
    You're absolutely right. I mean, for me, my view is that 
the world will go to nuclear after we exhaust every other 
option, after we try everything else and we discover it doesn't 
work when clearly we have this amazing technical fix in our 
hands. And it's one that we must take responsibility over 
because of the dual use of the technology.
    Mr. Lamb. So maybe to cut it short, the government would 
have to show commitment beyond just changing a few rules but 
purchase agreements, for example, and things that show that the 
money will really be there for a long term and the market will 
exist?
    Mr. Shellenberger. Yes, I mean Senator Lamar Alexander for 
decades had advocated a significant scaleup of nuclear plants. 
It was basically the right plan. I think everything else is 
basically wishful thinking unless you're in the place of any 
really concrete proposals to build nuclear plants.
    Mr. Lamb. Thank you. Madam Chair, I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Gonzalez?
    Mr. Gonzalez. Thank you, Madam Chair. And thank you to our 
panel. First, I'd like to ask unanimous consent to submit the 
following article titled ``Meet Vaclav Smil, the Man Who Has 
Quietly Shaped How the World Thinks About Energy'' in Science 
Magazine. I ask unanimous consent to submit for the record.
    Chairwoman Johnson. Without objection.
    Mr. Gonzalez. Thank you. So one of the things that we've 
talked a lot about in this Committee is the issue of climate 
change. And I think we've actually made progress, sort of this 
bizarro world where in here I feel like we make progress and 
they get on Twitter and, God forbid, it's something completely 
different.
    So I want to start first by talking about sort of the 
transitions. And one of the reasons I like this article is 
Professor Smil basically goes through and talks about the 
different transitions from energy sources from wood to fossil 
fuels, first coal, then oil and natural gas that took over a 
century. And basically the science is pretty clear that the 
next transition if we go to full-scale renewables will be very 
slow. And so these projections, some in the Green New Deal and 
whatnot, that we can somehow solve this with wind, solar, and 
battery is fanciful.
    And so that's why I've been very excited to hear Ranking 
Member Lucas' comments on the need to increase basic research 
and discover the answer to this question because I don't 
personally believe that it exists with the exception of 
potentially nuclear. And I know, Mr. Shellenberger, we probably 
agree on that.
    And so I want to start with you. In your testimony I think 
you make a strong argument in favor of growing our nuclear 
capacity both at home and abroad, and I certainly agree with 
you. We need to do more not only to expand our capacity but 
make it more affordable. Now, as I understand it, nuclear 
reactors are currently only custom-built, which generate 
significant costs. How important is the R&D component from an 
investment standpoint to promote advanced nuclear reactors?
    Mr. Shellenberger. I think it's a small but exaggerated 
part. I have a minority view of this within the pro-nuclear 
community. I think there's a fetishization of new designs and 
of that particular phase of the process. Basically, if you look 
even at solar panels, which have experienced a significant 
decline in cost, 90 percent decline in cost, it wasn't a 
breakthrough with a different design. It was actually the same 
boring old silicon solar panel that they just mass manufactured 
in big factories in China. And so your point about scale is 
really, really important. What brings down the price is being 
able to do the same. It's just factory-type production or mass 
manufacturing that brings down prices.
    Mr. Gonzalez. And how does the U.S. currently set from a 
competitive standpoint relative to other nations in developing 
the technology?
    Mr. Shellenberger. As far as I can tell, we don't have a 
significant advantage in terms of new smaller reactors or novel 
designs that use a different coolant than water. The Russians 
and the Chinese are all pursuing that, the Koreans are 
certainly pursuing it. The Canadians are getting into it. 
Again, I just think there's just way too much emphasis on 
design type because I think there's some idea that we're going 
to have some kind of a breakthrough in design. But that's just 
not consistent with any physical understanding of the 
technology or the history.
    Mr. Gonzalez. OK. So what would be the most helpful in 
terms of increasing our competitiveness?
    Mr. Shellenberger. We need to be building significant 
amounts of nuclear power plants at home. There's no alternative 
to it, so if you're Nigeria and you're considering who to go 
with, and the Chinese and the Russians and the Americans come 
and the Chinese and the Russians are like, yes, we're building, 
you know, 10 reactors in the next 10 years, and the Chinese are 
like we're building 20, and the United States is like, well, we 
were building four but then we canceled two of them and we're 
hoping to get the two done and maybe we'll build some other 
kinds but we're not really sure, and, by the way, we don't 
really know who you could work with in the United States, but 
good luck. I mean, that's just not a competitive offering.
    Mr. Gonzalez. Right. No, I certainly share that opinion. 
And with that, I yield back. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Beyer.
    Mr. Beyer. Thank you, Madam Chair. Thank you all very much 
for being here with us. You've made the really good case, and 
IPCC continues to year after year about the need for very deep 
reductions in future emissions, but I also keep reading again 
and again that we're not going to be able to do this without 
negative net emissions, that we have so much that we've already 
put into the atmosphere.
    I was the lead on the SEA FUEL Act, which got included in 
the national defense authorization, to direct the Department of 
Defense and Homeland Security to pioneer products from 
seawater. And then Suzanne Bonamici has just introduced a bill 
this week on the Blue Carbon for Our Planet Act, which really 
pumps up Federal research for the blue carbon systems.
    So, Dr. Murray, you're Woods Hole I guess. Can you talk and 
elaborate on the need for negative emissions technologies and 
even specifically thinking about underserved communities or 
economic justice communities and the hard-to-decarbonize 
industries like cement, for example?
    Dr. Murray. To be honest, sir, I'm not an expert in those 
matters that you raised regarding that. I can speak to you 
about some of the blue economy measures, which are, you know, 
very, very strong, as you just mentioned with your colleagues, 
and that sort of thing, which I heartily support because we're 
going to need those to be part of any equation to get us to 
decreasing emissions, decreasing down to negative emissions, 
and so on. But the specifics of cement and such matters like 
that I'm unqualified to answer.
    Mr. Beyer. Dr. McElwee is looking more confident at the 
moment.
    Dr. McElwee. I'm happy to speak a little bit to negative 
emissions technologies. I mean, we have one right now, and it's 
plant, vegetation, and trees. I mean, they do an excellent job 
of doing a lot of the carbon dioxide removal that we 
potentially need. The problem is to scale them up to the amount 
of land that we would need to make a huge dent would then 
introduce competition with food production and so forth. So 
that's why we need potentially other technologies.
    And so Representative Gonzalez just a few minutes ago was 
saying where do we need basic research, and this would be an 
area. So carbon capture and storage, either direct air carbon 
capture or bioenergy carbon capture and storage are included in 
model pathways to reach 1.5 degrees. It is nearly impossible to 
limit our warming to 1.5 degrees without some of these negative 
emissions technologies. The problem is the research is not 
keeping up with our need for them.
    Mr. Beyer. That's interesting. And, Ms. Fransen, we have a 
variety of carbon pricing bills floating around. Chris Van 
Hollen and I have one. Ted Deutch, he had another using the 
economic dividend. John Larson has one that funds 
infrastructure. Can you talk about how carbon pricing--how 
important it is and how valuable it might be to use market 
forces to move this?
    Ms. Fransen. Absolutely. And I'd also like to echo what Dr. 
McElwee said about the need for negative emissions technologies 
and carbon dioxide removal. WRI is actually doing a significant 
amount of research into technology and natural climate 
solutions that can generate negative emissions, and we'd be 
happy to address specific questions or follow up on that.
    I understand that Congress last year passed $60 million in 
R&D for carbon dioxide removal, which is a great start. And our 
research indicates we need to scale that up to around $325 
million. So there's a great opportunity there.
    Onto carbon pricing. Carbon pricing is indeed a very useful 
tool to help reduce emissions. It's not a silver bullet. It's 
got pros and cons, like many other policy instruments. On the 
upside, what carbon pricing does is change the relative cost of 
high-carbon and low-carbon goods. It provides incentives for 
businesses and consumers to shift to existing low-carbon 
technology.
    In terms of limitations, carbon pricing alone cannot 
overcome other market barriers that limit the uptake of clean 
technology such as high upfront costs, mismatches between 
landlord-tenant problems, things of this nature. And a carbon 
price alone is not likely to provide adequate incentives for 
investment in technologies that are still a bit higher on the 
cost curve. So it can serve as a very useful part of a 
comprehensive policy portfolio to drive down emissions. My 
colleagues at WRI also do a significant amount of research in 
this area and would be happy to follow up.
    Mr. Beyer. Thank you very much. Dr. Steltzer, I love your 
Twitter handle, Heidi Mountains, very cool. So you do all this 
work on mountain slopes and the like. One of the things I 
haven't heard much today is the impact of eating animal 
products on climate change. There is a fascinating documentary 
out there right now called Game Changers that talks about 
something like 80 percent of our agricultural land in the U.S. 
is used to grow products for our meat production.
    So my time is up, but the throwaway question is, why 
doesn't the environmental community talk more about that as a 
solution? I yield back.
    Chairwoman Johnson. Thank you very much. Mr. McAdams.
    Mr. McAdams. Thank you, Madam Chair and Ranking Member 
Lucas and our witnesses for convening here today to talk about 
recent climate reports and how we can combat this massive 
threat.
    I want to just highlight some recent news, and that is the 
report from NASA and NOAA that showed that global average 
surface temperatures last year were nearly 1+ Celsius higher 
than the average from 1951 to 1980, making last year the 
second-hottest year on record and the decade the hottest decade 
on record. So I don't think there's any question that we need 
to take more actionable steps to prevent further climate 
change.
    However, there are certainly a number of ideas about how to 
address climate change and to build more resilient communities 
and infrastructure to brace for it. And we've heard many of 
those ideas from our witnesses and from Members, both 
Republican and Democrat today.
    Last year, the Utah State legislature, my home State, 
commissioned the Kem C. Gardner Policy Institute at the 
University of Utah to produce a changing climate roadmap for my 
home State of Utah to better play its part in addressing 
climate change. And some of the recommendations that came 
forward from this report include: One, reducing carbon 
emissions produced in the State; two, creating an air quality 
and climate change solutions laboratory; three, implementing 
large electric vehicle networks throughout the State; four, 
developing economic transition plans to rural communities 
across our State.
    Additionally, over 20 cities and towns in Utah--there was a 
recent story in the Salt Lake Tribune. Over 20 cities and towns 
and three counties in my State have committed to getting to 
zero carbon emissions. So I would like to point out that we are 
trying to play our part in my State.
    So my question for our witnesses, for any of you, is how 
can the Federal Government both address the need for better 
climate policy and support our States and our local governments 
that are already doing this work?
    Dr. Steltzer. Hi, neighbor. Colorado, Utah. Thank you. I 
really appreciate what you all shared. I feel like we don't 
always know what's happening on the other side of a State 
border even though we may travel and go to those places. So I 
expect you've been to Colorado, and I've been to----
    Mr. McAdams. Yes. Yes.
    Dr. Steltzer [continuing]. Utah plenty, and I know how 
great a State Utah is.
    Mr. McAdams. The skiing is actually better on our side.
    Dr. Steltzer. I have heard that, but nobody's invited me to 
those mountains yet, and I haven't done any research there. 
When I come to Utah, I go to the desert country, and what I 
think about that we could do to help make that work better is 
to support the connection between people across county lines 
and State lines for air and watershed wide.
    So the water from Colorado makes its way to Utah. You all 
have some of your own water, too, that falls on your mountains, 
but the southern part of your State depends on the water from 
my State. The air that comes into my State comes from your 
State and across from the west from the Pacific and across, and 
it brings the water from the ocean.
    So where and how do we make those interstate connections? 
Where and how does our Federal Government help to facilitate 
those opportunities because of that interconnection between the 
air and the water? And when we have those conversations, the 
planning can be with the resilience-mindedness.
    And one of the things that I want to highlight about 
resilience-mindedness because you brought up resilience is it's 
always about dispersed and diverse. So on a mountain meadow in 
Colorado the way that from year to year in variable climate 
cycles, that meadow always provides for the ranching that 
happens on a lot of these mountain hill slopes is because there 
are so many different species. And the grasses are really 
pretty incredible. The different grass species are pretty 
incredible for what they can do.
    And as we focused a lot of conversation today on one energy 
system, nuclear, I want to put forward a reminder that 
resilience is dispersed and diverse. And so it's not saying 
that nuclear can't be a part of the puzzle, but let's make sure 
we have lots of puzzle pieces at play.
    Mr. McAdams. Thank you. And I'll leave more time for the 
remaining people who have questions, but the question was asked 
earlier, what do we gain if the United States went to zero 
emissions immediately. And one thing that I would point out in 
our States we have cleaner, better water, more water, cleaner 
air. And in this conversation about the global impacts of 
climate change and how can a small State like Utah have an 
impact on what's happening around the world, we can have an 
impact on what's happening in our backyard and make our lives 
healthier and better for the people who live in our great 
States. Go ahead.
    Ms. Fransen. Thank you. It was great hearing about all the 
things that Utah and cities in Utah are doing. Congratulations. 
It's fantastic. I think a couple of things. There are a growing 
number of U.S. States and cities that are being very active on 
this issue, which is wonderful. They can drive significant 
emissions reductions. But we know, and as you indicated, they 
can't do it alone. They can't get us to where we need to go 
alone, which is to very significant emissions cuts by 2030 and 
eventually down to net zero.
    In terms of what the Federal Government can do to support 
those efforts, there are a number of things. I would harken 
back to our earlier conversation about carbon pricing as part 
of an overall package. That could generate significant 
incentives to support those efforts. Certainly Federal 
incentives and regulations to go to zero carbon electricity 
quickly not only in Utah but everywhere to help incentivize and 
support the electrification and decarbonization of end uses, 
providing support to States on building codes, going forward 
with efficiency standards, those are all things that could be 
part of this package and support State and local efforts. Thank 
you.
    Mr. McAdams. Thank you for those comments. I see my time is 
expired, and so I yield back.
    Mr. Beyer [presiding]. The Chair recognizes the gentleman 
from Illinois, Mr. Casten.
    Mr. Casten. Thank you, Mr. Chair. Thank you to all the 
witnesses for coming.
    I want to just start by level-setting a little bit because 
this won't be news to the folks on the panel, but sometimes the 
folks watching I think don't follow stuff as much as they 
should.
    Homo sapiens have been around for about 300,000 years, I 
think culture about 100,000. Fifty percent of all the CO<INF>2</INF> 
we have ever emitted as a species is since Back to the Future 
came out in 1985. Dr. Steltzer, as you mentioned, we've got all 
these positive feedback loops from lowering albedo effect of 
melting sea ice to accelerating methane release from permafrost 
and these massively nonlinear shifts, and yet we remain 
bedeviled by the fact that we have voices that either suggest 
that this is a step function, all we got to do is just grow 
crops in Canada, or that this is linear, that it's just, oh, 
you know, it's slowly changing, or worse, that we can just deny 
the whole thing is even real. And we struggle on this side of 
the room with the fact that what is scientifically necessary is 
so far beyond what is politically possible. And that is a path 
to suicide.
    And so, you know, I think, number one, I'd like to ask us 
all to please give as much respect to people who would deny the 
science or deny the urgency of the science with as much respect 
as we treat people who deny gravity. They've earned it.
    Number two, we cannot let the recognition of the urgency 
allow us to deny the complexity. And I get nervous that when we 
politicize this we have one side saying it ain't urgent, we 
have the other side saying it's simple. Both of those are paths 
to suicide. And so I want to ask a science question and a 
policy question if I could.
    Dr. Murray, I want to start with you. For us to not have to 
spend the rest of our time on this planet dealing with 
environmental justice, we have to get back to 1985 CO<INF>2</INF> 
levels because the sea levels are rising, the oceans are 
acidifying, heat islands in the cities are growing. That means 
something like 320 parts per million in the atmosphere. We're 
at 100 above that right now. Given, as you've described, the 
oceans play this buffering effect of absorbing CO<INF>2</INF> 
as it puts into the atmosphere, before factoring in the account 
that the oceans are going to burp about as we drop, how far do 
we have to drop atmospheric CO<INF>2</INF> levels to get to the 
point where we will equilibrate at something like 320?
    Dr. Murray. I'm going to get back to you on that. That's a 
very specific question that I don't have the numbers right on 
hand to answer. It's very clear that rapidly gets into negative 
emission scenarios that we were talking about earlier and to 
get the number back.
    The other factor involved here is the long residence time 
of carbon dioxide in the atmosphere has a buffering capacity on 
the order of like 100 years or 200 years or so. So even if we 
go to zero now, even if we take 40 years, 50 years if the 
technology was invented today to start getting to significant 
negative emission scenarios, we're still going to need to 
adapt, to mitigate, to do many of these things we're talking 
about under any scenario.
    Mr. Casten. Well, I'd appreciate it. The number, it was 
recently estimated to me, and I'd like to confirm this, that 
the number is around 280. And if taking 100 parts per million 
is roughly 400 billion tons of CO<INF>2</INF> if in fact that's 
more like 280, that's 600 billion tons. I don't know if that's 
right, but I'd welcome if you could follow up afterwards with 
some estimate of what you think that number is.
    Dr. Murray. Yes, we will follow up with that. That scale 
seems about right to me, but we will get that specific answer 
for you, sir.
    Mr. Casten. OK. My policy question is for Ms. Fransen. 
There is an extremely disingenuous argument going on about can 
we afford to reduce CO<INF>2</INF>. It's dumb, it's 
irresponsible. And, oh, by the way, zero marginal cost energy 
is cheaper. I don't care what anybody tells you. I've spent 20 
years in the energy industry. Deploying zero cost energy 
actually lowers the cost of energy. But it takes capital.
    The conservative estimates the amount we spend subsidizing 
the oil, the fossil fuel sector in this world is about $20 
billion a year. The International Monetary Fund has estimated 
that the indirect and direct subsidies get close to $600 
billion a year, which is roughly our defense budget, round 
numbers. Total U.S. energy spend is about $1 trillion a year. 
Is it your view that the fossil fuel industry would be 
economically competitive against clean energy in the absence of 
those subsidies?
    Ms. Fransen. No, it is not. You're absolutely right that 
zero carbon energy is now cheaper than existing coal, new zero 
carbon energy is now cheaper than existing coal in many 
locations. Those costs are coming down very quickly. And 
certainly once you factor in the external costs of greenhouse 
gas emissions and other sources of air pollution and damages 
that come from fossil fuels in the form of health costs, I 
could go on, natural disasters that are exacerbated by climate 
change, et cetera; the economic case for moving to zero carbon 
energy is extremely strong. Thank you.
    Mr. Casten. Thanks. I'm out of time, but I just want to 
leave the question to all of you. With $600 billion a year of 
subsidies, we spend a lot of time talking about what incentives 
we can put in place for clean energy. It's politically easier 
to pass incentives than it is to remove barriers. And if any of 
you have thoughts you'd like to submit for the record about 
what barriers we could reduce, I would appreciate it. Thank 
you, and yield back.
    Mr. Beyer. The Chair recognizes the gentlelady from Texas, 
Congresswoman Fletcher.
    Mrs. Fletcher. Thank you very much, Mr. Chairman. And thank 
you to the panel for being here this morning. I've really 
appreciated your insights and your comments this morning.
    And I want to follow up on a couple of things that we've 
heard today. While I, too, would like to make the observation 
that I think there is more agreement than disagreement on 
climate change and the need to do something. And it seems to me 
from where I come from that the question is really how and what 
do we do. And we need guidance and we need help from the 
scientific community in helping us prioritize.
    I represent the energy capital of the world. I am from 
Houston. We believe in climate change. We know it's real. We 
know it's happening, and we want to be part of the solution. 
That is the consistent message from my constituents, including 
those who are in the energy business. And I think it's really 
important that, as we think about solutions we bring everybody 
to the table, especially the people who have expertise in 
delivering energy now because that is what we all want to see. 
We want to see this planet continue for our children and our 
grandchildren. And we want to make sure that we are part of the 
solution, not part of the problem.
    So with that in mind, there are a couple of things that you 
all have touched on in terms of technology, and I think that's 
a place of common ground across the political spectrum. I think 
this is a place where actually hearing about sort of political 
difficulties, there's a lot of consensus. And there are two 
issues that have come up today.
    And, Dr. McElwee, I think you were talking a little bit 
about direct air capture and basic research, and that is 
certainly an area, as well as CCUS (carbon capture, 
utilization, and storage) is another place where folks in my 
community are very interested in investing. When we talk about 
the basic research we need, there's sort of a concept, but 
where would you start in terms of doing that research, and what 
do you see as kind of the science we need to be doing and we 
need to be encouraging from a policy level enabling, whether 
it's through the Office of Science or other places to bring 
that project faster?
    Dr. McElwee. Let me say first most of my experience with 
negative emissions technologies is around the land sector as 
opposed to direct air capture, but they're both very promising, 
right, so no doubt that we need to move in this direction. I 
mean, one of the barriers is of course that there is no penalty 
for emitting carbon, right? And so until we figure out how to 
internalize that externality, it becomes very hard for the 
private sector, for example, to invest in some of these very 
large-scale things that we're going to need. So it's going to 
need to be a partnership of multiple things where we can bring 
industry folks on board, but we give them the incentive to do 
that through, say, carbon pricing or something else.
    Certainly we need more partnerships with our universities. 
There are some really interesting things, for example, at Rice 
University right now looking at the land sector in terms of 
getting more money to our ranchers out in east Texas who are 
doing a great job of conserving soil carbon and improving 
vegetation on their lands. That actually helps with flooding as 
well, right? So all of these systems are connected. So if we're 
worried about resilience downstream and in urban areas, those 
sorts of projects are what we need to be looking at as well. So 
it's not always sort of fancy shiny new technology, but it's 
doing things better that we know we can do.
    Mrs. Fletcher. Thank you for that. And I am familiar with 
some of the suggestions coming out of the SSPEED (Severe Storm 
Prediction, Education, & Evacuation from Disasters) Center and 
other folks at Rice who are working on some of these ideas 
where there really is a connection. And I think that that's 
what many of us who are laypeople, not scientists, are looking 
for.
    And so I think you also mentioned in your testimony--and 
I'd love to hear with the time I have left from each of you--
Dr. McElwee, you said in your written testimony one of the 
findings of work there are a lot of actions we can take now. 
And so I think if each of you wanted to just tackle that. What 
do you think is sort of the first thing or a thing that we 
could do now that would be useful for folks to understand kind 
of your--I don't want to say your top priority but just one of 
the many things that's right in front of us, that would be 
helpful to get your perspectives. Dr. Murray?
    Dr. Murray. So I'll answer that question also by drawing 
attention to your--an agreement, your point about there's more 
agreement than disagreement. And I just want to draw 
everybody's attention to the memorandum for the heads of 
executive departments and agencies from OSTP from the current 
Administration, the current Administration. And they talk about 
many things in the science priorities for the coming Fiscal 
Year 2021. But one of the sections is American energy and 
environmental leadership, something we've all been talking 
about here today. And they identify three areas of interest. 
One is energy, which we've certainly talked about a lot here 
today. The other one is oceans, OK, and it's all oceanographic. 
I've just got to point that out. But they also talk about 
prioritizing new and emerging technologies, they talk about 
batteries, they talk about things like that.
    But then the third thing is Earth system predictability, 
and that's Earth systems, so not just oceans but land, 
everywhere. And they're talking about prioritizing R&D to 
quantify different timescales, different geographic areas. They 
talk about artificial intelligence, adaptive observing systems. 
These are areas that I think throughout our technological 
sectors, throughout academia, throughout our national labs are 
bipartisan, but more agreement than disagreement. So those are 
the sorts of things that I would be, if I were in your shoes, 
really looking to capitalize on, many of them that are in this 
OSTP memo and some of these other things through the years, 
different Administrations, different Congresses.
    Mrs. Fletcher. Terrific. Thank you so much. And I have 
actually gone over my 5 minutes. But for the rest of you, if 
you want to submit a response for the record, I think I can 
anticipate some of them, but really appreciate hearing from all 
of you this morning. It's been incredibly helpful. Thank you. 
And I yield back.
    Mr. Beyer. The Chair recognizes the gentlelady from 
Virginia----
    Ms. Wexton. The great Commonwealth of Virginia.
    Mr. Beyer. Loudoun County, Virginia, Ms. Wexton.
    Ms. Wexton. Thank you, Mr. Chairman, and thank you to all 
the witnesses for coming and sharing your knowledge with us 
today.
    Just outside of my district in northern Virginia is the 
Smithsonian's Conservation Biology Institute, and they have 
done absolutely incredible work in conservation and 
biodiversity. They have brought species that were nearing 
extinction back from the brink, and they're conducting 
groundbreaking research on how ecosystems are impacted by 
climate change and also helping to advise on sustainable 
development.
    Dr. McElwee, in your testimony, you talked about 
sustainable land use and how that management is an important 
part of helping us adapt to climate change and the impacts that 
we're feeling from that. Can you explain a little bit? Are 
there economic benefits to it as well, and can you explain some 
of those?
    Dr. McElwee. Yes, yes. The Smithsonian center in your 
district is fantastic, and you're really lucky to have it. One 
of the things I think we haven't emphasized enough here today 
are the interconnections with biodiversity. So many of the 
climate impacts that we're already seeing are about species 
ranges changing and species having to do different things. So 
we want to make sure we connect that back to talking about 
impacts because they're crucially important.
    In terms of sustainable land management, one of the great 
things about a lot of our improved land practices ranging from 
cover crops to no-till and so forth is they're fairly low cost 
or they might have a small upfront cost but then the payback 
comes in year 2 and 3 and 4 and so forth. And so the economic 
benefits can be considerable.
    But again, we need to have a balance of incentives to make 
that happen. So right now, for example, our farmers and 
ranchers that are doing a better job of conserving carbon on 
their lands either in soils or vegetation, they don't get 
rewards for that. There's essentially the benefit for their own 
productivity, but on top of that all the benefits they're 
giving to the rest of us in terms of conserving carbon they're 
not getting economic benefits for. So things like carbon 
pricing, maybe incentives and subsidies around soil 
conservation and vegetation conservation, that would make it 
even more economically profitable to do those sustainable land 
management practices.
    Ms. Wexton. And related to that, in Virginia we're a part 
of the Chesapeake Bay Watershed Agreement, and we're very 
fortunate because we have buy-in from the States, localities. 
You know, everybody in the region understands the importance of 
this unique resource that we have. But other areas are not so 
fortunate and don't have necessarily the same resources or same 
buy-in. So would you say that those tools about incentivizing 
good behavior and incentivizing these sorts of agreements also 
would apply in cases like those?
    Dr. McElwee. Yes, absolutely. If you look at the States 
that have the highest percentage of agricultural lands under 
cover crops, it is precisely Virginia's and Maryland's, right, 
because it's about the downstream co-benefits having to do with 
nutrient runoff and so forth into the Chesapeake. And so 
because you have agreements and regulatory standards, as well 
as voluntary measures, that has increased the incentive for 
farmers and other folks to take this seriously.
    So there are other places that could do that. For example, 
my home State of Kansas, the amount of our croplands that are 
under cover crops is something on the order of less than 5 
percent whereas in Maryland it's close to 50 percent, so 
there's huge discrepancies between the States, and that comes 
down to this question of incentives and how do we make this 
balance of regulatory standards plus incentives to achieve 
those co-benefits like water management, clean water for 
drinking, biodiversity benefits, and so forth.
    Ms. Wexton. We can't just use one side of the ledger. We 
have to do the incentive as well as the requirement. OK. Very 
good. Thank you very much. And I will yield back the balance of 
my time with that.
    Mr. Beyer. Thank you very much. The Chair recognizes the 
gentleman from Tennessee, Congressman Cohen.
    Mr. Cohen. Thank you, sir. I missed the earlier part of the 
hearing. And did anybody talk about the effect of climate 
change on human health? A little bit, Dr. McElwee. What issues 
might be pertinent to Memphis? And it gets hot in Memphis and 
all through the south, and the south is known for a lot of 
kidney stones, the heat belt and stroke belt. As it gets hotter 
and hotter, people drink more tea and get more kidney stones. 
What are the different illnesses and maladies that will beset 
people because of climate change that you have ascertained?
    Dr. McElwee. I'm not a health expert, but based on the 
National Climate Assessment that came out last year for the 
United States, certainly heat waves. And that's what we had 
talked about with Representative Crist earlier. We know that 
heat waves and extreme heat events are going to increase as our 
emissions and our temperatures continues to rise. And so there 
are a number of health effects that are associated with those 
heat events. And they certainly tend to be exacerbated in urban 
areas where we have urban heat island effects as well. So 
certainly that's an area where the human health effects and so 
forth, the damages around that need to be weighed.
    We've talked a lot about, well, what are the costs of 
action. I really want to emphasize there are costs of inaction. 
And those include the health impacts of these extreme events 
that we are increasingly seeing and our National Climate 
Assessment points out that it is really the southern region 
that is going to be seeing those as we move forward.
    Mr. Cohen. Yes, ma'am.
    Ms. Fransen. The other angle that I would speak to on 
that--and I agree with absolutely everything that Dr. McElwee 
said--when we're talking about health and climate change, it's 
not only the health impacts of climate change itself but the 
health benefits that we can derive by getting off of fossil 
fuels. And in particular air pollution and all the health 
impacts that stem from that, in terms of asthma, heart disease, 
et cetera pose very serious both human and economic costs.
    One analysis that I'll mention that WRI was involved in 
found that measures to cut U.S. emissions about in half by 2030 
would actually generate up to around $56 billion in health 
benefits in 2030 primarily as a result of avoiding air 
pollution. Thank you.
    Mr. Cohen. Is it Heidi Mountain?
    Dr. Steltzer. It is. I love that that's happened here, too. 
It's easier in the mountains. Everybody's ready to gravitate to 
that.
    Mr. Cohen. It's Beyer's fault.
    Dr. Steltzer. I was just going to share that there's the 
direct effects when we think about it's a hotter, drier planet. 
And then we have to recognize all of the ecosystem-level 
changes, the atmospheric changes that go along with that, and 
it's hard to trace everything that goes back to how healthy is 
any one human, our communities at large. Resilience says we 
want to put health first and foremost and take care of people, 
and so that's an important piece. So if we have a warmer, drier 
planet, then we have more fires. And when we have more fires, 
we have air pollution.
    And we also have a loss and feeling of control. And what we 
haven't mentioned yet, and this isn't my expertise, but it ties 
into mental health. And so much of our human well-being depends 
on where and how we feel about what we do and don't have 
control over in our world.
    Mr. Cohen. Let me go from there. Your people-first is a 
great idea but animals second and the fires in Australia and 
koalas. Darwin made it to Australia, didn't spend a lot of time 
there on the Beagle or getting off the Beagle, but he did think 
about evolution when he was there when he saw the platypus and 
thought about them--and some other animals there that seemed 
obscure, and this unique area had such unique animals.
    What are we possibly losing in terms of extinction? I mean, 
there's some effort to put koalas on the extension list. Are 
there other little tiny little varmints that might have 
disappeared?
    Dr. Steltzer. I have to say I read the news a lot since the 
fires got big and vast. They name a lot of unique species that 
I don't know well even though I've been to Australia because, 
as you mentioned, they're small or they're unusual. What I can 
tell you is that it's incredible to go someplace and see an 
animal that doesn't look like anything you could have even 
imagined. Wombat, they've been on the news a little bit, not as 
much as the koalas, and that's because species differ in their 
capacity to keep themselves safe. Kangaroos are less impacted 
because they ran away. Koalas are slow and have a very unique 
food source. They're kind of stuck. Wombats dug underground. 
That's where they live is underground, and so they weathered, 
you know, the firestorm literally across their habitat. And now 
they're struggling for food.
    So, you know, some of the relief efforts that are going to 
Australia and care of animals is where and how can you provide 
food and animal water to animals that can't get to accessible 
food and water. And that's something that, you know, people in 
America can help contribute to.
    Mr. Cohen. Yes, Australia is a unique area for its flora 
and its fauna and some of it is jeopardized.
    If I can have a few extra minutes since there's nobody here 
to--thank you, sir.
    Climate change, important, serious, top of the chain. 
Technological advancements that threaten the environment, too, 
like plastic and the large amounts of plastic that's floating 
out there in the Pacific Ocean and that interfere with birds 
and fish and eating and killing and dying and blah, blah, blah, 
and Midway Island. Anybody got any experience on plastic and 
what we--yes, sir, please.
    Dr. Murray. Given that you're from Tennessee, I'd just like 
to draw attention to Eastman Chemical Company----
    Mr. Cohen. I'm from Memphis. It's just about a different 
part of the world.
    Dr. Murray. I'm from Boston, so----
    Mr. Cohen. You're closer to Eastman----
    Dr. Murray [continuing]. Tennessee----
    Mr. Cohen [continuing]. Than I am.
    Dr. Murray [continuing]. I'm closer. Yes, exactly. Right.
    But anyway, there's a lot of interesting industry-academic 
partnerships, and we're learning more as we can about plastics 
in the ocean and microplastics in the ocean. We truly don't 
have agreed-upon definitions of how small a microplastic is or 
how big it gets before it's something else. We don't understand 
the physical transport of it. We don't understand how it's 
transported down into the deep sea. We don't understand how one 
company's plastic might be different from another company's 
plastic in terms of how it degrades or is preserved in the 
environment.
    So, like many things in ocean sciences or land sciences or 
energy sciences, we are still in many ways in the gathering-
information mode. And particularly in the oceans we don't know 
what's out there, and we don't understand how it works. So we 
talk about oceans and human health, which is an NSF, NIH 
(National Institute of Health) jointly studied, jointly 
supported program. They are interested in the impact of the 
oceans on human health.
    We don't understand about the plastics, how plastics 
propagated up the food chain or downward, which is why my, you 
know, singular recommendation to you folks in my written 
testimony is we need more ocean observations. We need more 
terrestrial observations. We need to get that data there that 
you folks can then use to write informed legislation that makes 
sense. It makes sense financially, it makes sense socially, but 
also makes sense in that it's going to work. It's going to 
actually be targeting the right thing. And I think listening to 
this conversation here today, that's a unifying thing that I 
see coming.
    Mr. Shellenberger. Can I add one thing to your question?
    Mr. Cohen. Sure, please.
    Mr. Shellenberger. The one thing we do know is that what 
determines whether or not significant amounts of plastic waste 
make it to the ocean is whether or not a nation has a waste 
collection and management system, so we know that most of that 
plastic waste in the ocean is coming from countries that don't 
have waste collection and management systems. And the countries 
that don't have waste collection and management systems are 
poor countries, so it's another kind of case of why we need 
economic development.
    Mr. Cohen. But even when we have waste collection systems, 
if we don't get rid of single-use plastics--and I commend my 
Chair for having these glasses and water that we can pour 
rather than continue to use these single-use plastics, which so 
many of the Committees do, which is just awful to watch and 
witness, but we've got to get rid of single-use plastics or 
we're going to continue to spoil our environment, I mean, and 
kill animals.
    Mr. Shellenberger. Yes, but we need waste management and 
collection systems to prevent that plastic from going into the 
oceans. This is the major finding of the JanPak study from 
2015.
    Mr. Cohen. Well, that's true, but if we don't have all that 
plastic because we don't have single uses we have less need to 
do that. But beyond that, I wanted to talk to you anyway.
    Mr. Shellenberger. Yes. OK.
    Mr. Cohen. You talked about Senator Alexander, and he's my 
friend and he might be for witnesses and be for common sense 
and the Constitution and fairness and justice and all those 
things, but he's not necessarily in favor of Bellefonte being 
redone. And you know Bellefonte in Alabama, do you not?
    Mr. Shellenberger. I do.
    Mr. Cohen. And there's a private group called Nuclear 
Development that wants to develop Bellefonte, and they want to 
do it privately and think they can do it. Would that not be 
something we need to pursue and that's maybe where Lamar has a 
little error in his otherwise stellar record on nuclear?
    Mr. Shellenberger. Possibly, although my big point on 
nuclear is that we need a national nuclear strategy. And so 
we've got to get away from this hodgepodge potpourri nuclear 
and to have something approaching what we were doing in the 
1950s or something that's much more similar to what the 
Russians and Chinese are doing. Otherwise, it's just a kind of 
every day some new nuclear project that we kind of project our 
hopes onto, but it's not actually a plan.
    Mr. Cohen. But do you know anything about the Bellefonte 
plant? Do you know how practical that is? I mean, they've got 
some experts from Canada working on it.
    Mr. Shellenberger. I mean, I'm the most pro-nuclear person 
I know, so, I mean, I'm in favor of doing more nuclear. But I'm 
here to say that we've had decades of people being like why 
don't we try this, why don't we try that, and that's not a 
plan. The Chinese and Russians have a plan. And if we're ready 
to cede this dual-use technology to the Russians and Chinese, 
we should make that decision because right now we're just 
sleepwalking into it.
    Mr. Cohen. Let me close out with that. I'm happy to hear 
the Russians have a plan because if the Russians have a plan, 
then Trump will have a plan.
    I yield back the balance of my time.
    Mr. Beyer. Mr. Ranking Member, sir?
    Mr. Lucas. I would just note in my observation that one of 
the things that I am most enamored with about Memphis is the 
awesome barbecue, and thank goodness for that beef barbecue and 
pork barbecue and chicken barbecue and all those wonderful 
things that you produce.
    Mr. Cohen. You're welcome.
    Mr. Lucas. Yield back. Move to adjourn.
    Mr. Beyer. Before we adjourn, Mr. McAdams had mentioned a 
special NOAA report, so before this hearing comes to a close, 
I'd like to submit for the record an announcement from the 
National Oceanic and Atmospheric Administration and NASA that 
just came out at 11:00 a.m. this morning. Separate analyses 
from NOAA and NASA have both concluded that 2019 was the 
second-hottest year on record for the Earth, falling just 
behind 2016. The average temperature in 2019 across the Earth 
was 1.71+ Fahrenheit above average. And, further, NOAA finds 
that in 2019 the ocean heat content was the highest in recorded 
history.
    So, without objection, we'll submit this for the record.
    And before closing, I want to thank the witnesses very much 
for coming and testifying before our long hearing today. And 
the record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee may ask of the witnesses.
    So, without objection, the witnesses are excused, and the 
hearing is now adjourned.
    [Whereupon, at 12:49 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                              Appendix II

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
